UNITED STATES MARSHALS SERVICE

 ANNUAL FINANCIAL STATEMENTS

       FISCAL YEAR 2010

         U.S. Department of Justice
	
       Office of the Inspector General
	
                Audit Division
	

            Audit Report 11-10
             January 2011
           UNITED STATES MARSHALS SERVICE

            ANNUAL FINANCIAL STATEMENTS

                  FISCAL YEAR 2010


              OFFICE OF THE INSPECTOR GENERAL

                 COMMENTARY AND SUMMARY


       This audit report contains the Annual Financial Statements of the
United States Marshals Service (USMS) for the fiscal years (FY) ended
September 30, 2010, and September 30, 2009. Under the direction of the
Office of the Inspector General (OIG), Cotton & Company LLP performed the
USMS’s audit in accordance with U.S. generally accepted government
auditing standards. The audit resulted in an unqualified opinion on the
FY 2010 financial statements. An unqualified opinion means that the
financial statements present fairly, in all material respects, the financial
position and the results of the entity’s operations in conformity with U.S.
generally accepted accounting principles. For FY 2009, the USMS also
received an unqualified opinion on its financial statements (OIG Report
No. 10-09).

      Cotton & Company LLP also issued reports on internal control and on
compliance and other matters. For FY 2010, the Independent Auditors’
Report on Internal Control over Financial Reporting identified one material
weakness, which is an improvement over the prior year, when the auditors
reported one material weakness and one significant deficiency. This year’s
material weakness related to inadequate funds management controls. The
auditors found that financial and compliance controls are not adequate to
ensure that obligation transactions are executed and recorded in accordance
with laws and regulations, and related undelivered orders and accounts
payable balances are accurate and complete.

      In the FY 2010 Independent Auditors’ Report on Compliance and Other
Matters, the auditors concluded that the USMS’s financial management
systems did not substantially comply with federal financial management
system requirements and applicable federal accounting standards as
required by the Federal Financial Management Improvement Act of 1996.

      The OIG reviewed Cotton & Company LLP’s reports and related
documentation and made necessary inquiries of its representatives. Our
review, as differentiated from an audit in accordance with U.S. generally
accepted government auditing standards, was not intended to enable us to
express, and we do not express, an opinion on the USMS’s financial
statements, conclusions about the effectiveness of internal control,
conclusions on whether the USMS’s financial management systems
substantially complied with the Federal Financial Management Improvement
Act of 1996, or conclusions on compliance with laws and regulations. Cotton
& Company LLP is responsible for the attached auditors’ reports dated
November 3, 2010, and the conclusions expressed in the reports. However,
our review disclosed no instances where Cotton & Company LLP did not
comply, in all material respects, with U.S. generally accepted government
auditing standards.




                                   - ii -
               UNITED STATES MARSHALS SERVICE

                ANNUAL FINANCIAL STATEMENTS

                      FISCAL YEAR 2010


                          TABLE OF CONTENTS


                                                                              PAGE
	

MANAGEMENT'S DISCUSSION AND ANALYSIS..........................................3
	

INDEPENDENT AUDITORS’ REPORTS
	

   REPORT ON FINANCIAL STATEMENTS .............................................. 23
	

   REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING .......... 25
	

   REPORT ON COMPLIANCE AND OTHER MATTERS ............................... 39
	

PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES
	

   CONSOLIDATED BALANCE SHEETS .................................................. 43
	

   CONSOLIDATED STATEMENTS OF NET COST..................................... 44
	

   CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION ........... 45
	

   COMBINED STATEMENTS OF BUDGETARY RESOURCES ...................... 46
	

   NOTES TO THE FINANCIAL STATEMENTS .......................................... 47
	

REQUIRED SUPPLEMENTARY INFORMATION
	

   COMBINING STATEMENTS OF BUDGETARY RESOURCES ..................... 69
	

APPENDIX
	

   OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY
	
   OF ACTIONS NECESSARY TO CLOSE THE REPORT.............................. 73
	
This page left intentionally blank.
	
U.S. DEPARTMENT OF JUSTICE


UNITED STATES MARSHALS SERVICE



  MANAGEMENT’S DISCUSSION AND ANALYSIS

              (UNAUDITED)
This page left intentionally blank.
	
                               U.S. Department of Justice
                            United States Marshals Service
                      Management’s Discussion and Analysis
                                          (unaudited)


The United States Marshals Service (USMS) is the nation’s oldest Federal law enforcement agency
and operates under very broad statutory authority (28 U.S.C. 564 and 566.) This authority provides
the USMS with a great deal of discretion in performing its complex missions. All of the USMS
duties and responsibilities emanate from these statutory authorities.

MISSION

The mission of the USMS is to ensure that the Federal judicial process functions in a fair and
efficient manner. To execute this mission, the USMS organizes its workload and allocates
resources into five mission areas:
   •	 Judicial and Courthouse Security – The USMS protects Federal judges, jurors, and other
      participants in the Federal judicial process. This mission encompasses personnel security
      (security protective detail for a judge or prosecutor) and building security (security
      equipment to monitor and protect a Federal courthouse facility). The USMS assesses and
      investigates all inappropriate communication and threats to the Federal judiciary. The
      USMS participates on Joint Terrorism Task Forces and shares threat intelligence
      information with other agencies.
   •	 Fugitive Apprehension – The USMS is authorized to locate and apprehend Federal, state,
      and local fugitives both within and outside the U.S. under 28 U.S.C. 566(e)(1)(B). Fugitive
      apprehension includes warrants involving: escaped Federal prisoners; Federal probation,
      parole and bond default violators; and fugitives based on warrants generated during drug
      investigations. This mission also includes investigating and apprehending those who violate
      the Adam Walsh Child Protection and Safety Act.
   •	 Prisoner Security and Transportation – The USMS is responsible for processing
      prisoners in the cellblock, providing security for the cellblock area, transporting prisoners by
      ground or air, and inspecting jails used to house Federal detainees. The USMS is
      responsible for producing in-custody prisoners for court proceedings which involves moving
      prisoners between judicial districts and detention facilities.
   •	 Protection of Witnesses – The USMS provides for the security, health and safety of
      protected government witnesses and their immediate dependents whose lives are in danger
      as a result of their testimony against drug traffickers, terrorists, organized crime members,
      and other major criminals.
   •	 Tactical Operations – The USMS conducts special missions in situations involving crisis
      response, homeland security, and other national emergencies requiring a coordinated tactical
      response.
USMS missions comprise crosscutting activities that are implemented throughout the country and
several foreign office locations. USMS missions correspond with all three Department of Justice
(DOJ) strategic goals as described in DOJ’s FY 2007-2012 Strategic Plan.

ORGANIZATION STRUCTURE

The USMS headquarters (HQ) is located in Arlington, Virginia, with 94 district offices operating in
over 400 Federal courts and other locations throughout the United States and its territories. The
USMS organizational chart and district office locations are contained in Attachments 1 and 2.
Specific courthouse locations can be found on the USMS internet web site
at: www.usmarshals.gov. The decentralized organizational structure ensures that the USMS is able
to respond to law enforcement challenges in an efficient and effective manner.

FINANCIAL STRUCTURE

The financial structure of the USMS is decentralized, allowing each district and HQ program office
to exercise control over its respective budgetary accounts. The Financial Services Division (FSD)
at HQ assists district and HQ program offices by providing oversight and monitoring of
commitments, obligations, payments, outlays, and budget allocations. The USMS reports on the
following accounts:

Salaries and Expenses Appropriation (S&E)
The USMS S&E Appropriation is used for necessary general operating expenses. This funding
encompasses payroll, rent, utilities, travel, supplies, and equipment purchases. Funding is
appropriated by Congress on an annual basis and, within the amounts made available to the USMS,
may include specific no-year or multi-year budget authority. Once enacted, funds are apportioned
by the Office of Management and Budget (OMB) and DOJ to the USMS.

Construction Appropriation
The Construction Appropriation is a no-year account that is appropriated annually to the USMS. In
FY 2010 the USMS also received multi-year funding in addition to the no-year account. This
funding is to plan, construct, renovate, equip, and maintain any space controlled, occupied, or
utilized by the USMS in U.S. courthouses and other buildings. Once enacted, funds are apportioned
by OMB and DOJ to the USMS.

Justice Prisoner and Alien Transportation System Revolving Fund
The Justice Prisoner and Alien Transportation System (JPATS) was established in 1995 by
combining the aircraft fleets of several DOJ components. Initially this program was funded within
the USMS S&E Appropriation. In 1998, OMB established the JPATS Revolving Fund in order to
finance flight operations and maintenance through customer funding rather than by direct
appropriations. The Federal Bureau of Prisons (BOP), the Office of the Federal Detention Trustee
(OFDT), and the Department of Homeland Security (DHS) Immigration and Customs Enforcement
(ICE) are the three primary Federal customers who are billed based on flight hours utilized. The
USMS transportation requirements are funded using annual reimbursable agreements between the
USMS and OFDT. OFDT’s funding source is its Detention Appropriation.
Reimbursable Agreement Authority with OFDT:
OFDT was established in 2003 as an oversight organization responsible for coordinating detention
and transportation requirements on behalf of the DOJ. OFDT issues detention funding to the USMS
through reimbursable agreements, using OFDT's Detention Appropriation. The Detention
Appropriation is a no-year authority that is appropriated annually by Congress to the OFDT.

Allocation Transfer Authority from the Administrative Office of the U.S. Courts (AOUSC):
AOUSC receives an annual Court Security Appropriation that includes allocation transfer authority
to the USMS. AOUSC transfers funds to the USMS each year using a non-expenditure transfer
authorization (SF-1151). The funds are used to pay the wages, supplies, and equipment for Court
Security Officers (CSO) who provide security at Federal courthouses and other facilities that have
Federal court operations. Funds are also used to obtain and install security equipment to screen and
monitor visitors and packages that enter Federal courthouses.

Violent Crime Appropriation:
This no-year funding was instituted to directly investigate, arrest, and prosecute violent criminals.
The USMS did not receive appropriations for this program in FY 2010 or FY 2009. Residual funds
appropriated in prior years were fully expended in FY 2009.


ANALYSIS OF FINANCIAL STATEMENTS

Assets: The USMS’s Balance Sheet as of September 30, 2010 shows $1,112.5 million in total
assets, an increase of $166.8 million (17.6%) over the previous year’s total assets of $945.7 million.
The largest assets include Fund Balance with U.S. Treasury (FBWT) and General Property, Plant,
and Equipment in the combined amounts of $942.6 million and $751.9 million as of September 30,
2010 and 2009, respectively. This comprised 84.7% and 79.5% of total assets as of September 30,
2010 and 2009, respectively.

The FBWT represents all funds the USMS has on account with the U.S. Treasury to make
expenditures and pay liabilities. These funds are expended to support numerous programs and
activities so that the USMS may accomplish its primary mission of protecting the Federal judicial
process.

The General Property, Plant, and Equipment net balance represents property and leasehold
improvement items with a cost basis greater than $25,000 ($100,000 for airplanes and leasehold
improvements) less accumulated depreciation. As of September 30, 2010, the General Property,
Plant, and Equipment net balance was $257.9 million. As of September 30, 2009, the General
Property, Plant, and Equipment net balance was $254.3 million.

Liabilities: Total USMS liabilities were $646.6 million as of September 30, 2010, an increase of
$56.4 million (9.6%) over the previous year’s total liabilities of $590.2 million. The largest liability
is Accounts Payable with the Public which equaled $406.3 million and $353.9 million, as of
September 30, 2010 and 2009, respectively. This comprised 62.8% and 60.0% of total liabilities, as
of September 30, 2010 and 2009, respectively. The USMS provides secure confinement and
housing at non-Federal (state, local, and private) detention facilities for Federal prisoners prior to
judicial proceedings. Accounts Payable with the Public are impacted by the fluctuation of the
Federal prisoner population housed at these facilities.

Net Cost of Operations: The USMS’s Statement of Net Cost presents the gross and net cost by
strategic goal. The net cost of USMS operations totaled $1,512.1 million for the year ended
September 30, 2010, an increase of $181.6 million (13.6%) from the previous year’s net cost of
operations of $1,330.5 million. The increase in the FY 2010 net cost was primarily due to the
higher costs associated with housing, transporting, and providing medical care for prisoners that
were in USMS custody prior to final sentencing.


Budgetary Resources: The USMS’s FY 2010 Statement of Budgetary Resources shows $3,265.5
million in total budgetary resources, an increase of $276.8 million (9.3%) from the previous year’s
total budgetary resources of $2,988.7 million. The increase is primarily due to an increase in the
appropriations received from Congress for FY 2010.


Net Outlays: The USMS’s FY 2010 Statement of Budgetary Resources shows $1,394.0 million in
net outlays, an increase of $113.0 million (8.8%) from the previous year’s total net outlays of
$1,281.1 million. The increase is primarily a result of increased outlays for prisoner costs as well as
the increase in overall expenditures from having received more appropriated funds from Congress
for FY 2010.
                                         Table 1. Source of the USMS Resources
                                                 (Dollars in Thousands)

                              Source                                  FY 2010       FY 2009       Change%

Earned Revenue                                                        $1,514,103    $1,471,465          2.9%

Budgetary Financing Sources

 Appropriations Received                                               1,190,039      964,000          23.4%

 Appropriations Transferred-In/Out                                      393,936       354,616          11.1%

Other Financing Sources

 Transfers-In/Out Without Reimbursement                                      186          335         (44.5)%

 Imputed Financing From Costs Absorbed by Others                           38,441      32,295          19.0%

Total                                                                 $3,136,705    $2,822,711         11.1%


                                        Table 2. How USMS Resources are Spent
                                                  (Dollars in Thousands)

                       Strategic Goal (SG)                            FY 2010       FY 2009       Change%

SG 1. Prevent Terrorism and Promote the Nation’s Security
                                                        Gross Cost         $5,159      $5,138
                                             Less: Earned Revenue               -             -
                                                          Net Cost         $5,159      $5,138           0.4%

SG 2. Prevent Crime, Enforce Federal Laws, and Represent the
Rights and Interests of the American People
                                                        Gross Cost         $4,872      $4,129
                                             Less: Earned Revenue               -             -
                                                          Net Cost         $4,872      $4,129          18.0%

SG 3. Ensure the Fair and Efficient Administration of Justice
                                                        Gross Cost    $3,016,174    $2,792,695
                                             Less: Earned Revenue      1,514,103     1,471,465
                                                          Net Cost    $1,502,071    $1,321,230         13.7%


                                                 Total Gross Cost     $3,026,205    $2,801,962
                                       Less: Total Earned Revenue      1,514,103     1,471,465
                                       Total Net Cost of Operations   $1,512,102    $1,330,497         13.6%
2010 FINANCIAL HIGHLIGHTS

The DOJ FY 2007-2012 Strategic Plan includes three strategic goals. The USMS receives funding
through direct appropriations (S&E and Construction), transfers from AOUSC, and a variety of
reimbursable sources that support the following three strategic goals:

Strategic Goal 1, Prevent Terrorism and Promote the Nation’s Security, includes activities that
strengthen partnerships to prevent, deter, and respond to terrorist incidents. The Goal 1 costs
include payroll and operating costs for the Office of Protective Intelligence (OPI) and payroll costs
for deputies working with the Federal Bureau of Investigation (FBI) Joint Terrorism Task Forces.
The USMS expended net program costs of $5.2 million for the fiscal year ending September 30,
2010 and $5.1 million for the fiscal year ending September 30, 2009 on Strategic Goal 1.

Strategic Goal 2, Prevent Crime, Enforce Federal Laws, and Represent the Rights and
Interests of the American People, includes activities related to fugitive investigation and
apprehension efforts that prevent, suppress, and intervene in crimes against children. When the
Adam Walsh Child Protection and Safety Act was enacted in 2006, the Attorney General gave the
USMS primary enforcement responsibility. The Goal 2 costs include payroll and operating costs
related to the Sex Offender Apprehension Program. The USMS expended net program costs of $4.9
million for the fiscal year ending September 30, 2010 and $4.1 million for the fiscal year ending
September 30, 2009 on Strategic Goal 2.

Strategic Goal 3, Ensure the Fair and Efficient Administration of Justice, includes activities
that protect the Federal judiciary and other participants in Federal proceedings, and ensure the
apprehension of fugitives from justice. The USMS expended net program costs of $1,502.1 million
for the fiscal year ending September 30, 2010 and $1,321.2 million for the fiscal year ending
September 30, 2009 on Strategic Goal 3.

PERFORMANCE INFORMATION

Data Reliability and Validity

The USMS views data reliability and validity as critically important to plan and assess performance.
As such, this document includes a discussion of data validation, verification, and any identified data
limitations for each performance measure presented. The USMS ensures that data reported meets
the following criteria:

       At a minimum, performance data are considered reliable if transactions and other
       data that support reported performance measures are properly recorded, processed,
       and summarized to permit the preparation of performance information in
       accordance with criteria stated by management. Performance data need not be
       perfect to be reliable, particularly if the cost and effort to secure the best
       performance data possible will exceed the value of any data so obtained.
FY 2010 REPORT ON SELECTED RESULTS

The USMS performance measure, “Ensure Judicial Proceedings are not Interrupted due to
Inadequate Security,” supports two DOJ strategic goals. They are:

STRATEGIC GOAL 1: Prevent Terrorism and Promote the Nation’s Security – Less than 1%
of the USMS Net Costs support this Goal. The programs that support this goal are Protective
Intelligence and Joint Terrorism Task Forces.

     STRATEGIC OBJECTIVE 1.2: Strengthen partnerships to prevent, deter, and respond to
     terrorist incidents.

STRATEGIC GOAL 3: Ensure the Fair and Efficient Administration of Justice – More than
99% of the USMS Net Costs support this Goal. The programs that support this goal are Judicial
and Courthouse Security, Prisoner Security and Transportation, Protection of Witnesses, and
Tactical Operations.

     STRATEGIC OBJECTIVE 3.1: Protect judges, witnesses, and other participants in Federal
     proceedings, and ensure the appearance of criminal defendants for judicial proceedings or
     confinement.

PROGRAMS (Protective Intelligence, Joint Terrorism Task Forces, Judicial and Courthouse
Security, Prisoner Security and Transportation, Protection of Witnesses, and Tactical
Operations):

Background/Program Objectives: The USMS maintains the integrity of the Federal judicial
process by: 1) ensuring that each Federal judicial facility is physically safe and free from any
intrusion intended to subvert court proceedings; 2) guaranteeing that all Federal judges, prosecutors,
government witnesses, jurors, and other participants are secure during court proceedings; and
3) maintaining the custody, protection and safety of prisoners brought to court for any type of
criminal court proceeding.

The USMS measures the number of judicial proceedings that are interrupted due to inadequate
security. An “interruption” occurs when a judge is removed from the courtroom as a result of a
potentially dangerous incident or when court proceedings are suspended until additional Deputy
U.S. Marshals are assigned to guarantee the safety of the judge, witness, and other participants.

The USMS Communications Center collects Weekly Activity Reports and Incident Reports from
the districts. Before data is disseminated agency-wide, the USMS Communications Center verifies
the information with HQ operational program managers to ensure accuracy. These reports have
been collected by the USMS Communications Center via email since FY 2003.
                                 Table 3. Per for mance Measur e

         Ensur e J udicial Pr oceedings ar e not Inter r upted due to Inadequate Secur ity



                                                         Number of J udicial
                                                      Pr oceedings Inter r upted
                    Per for mance Measur e:          Due to Inadequate Secur ity
              FY 2001 Actual Per for mance:                                   N/A
              FY 2002 Actual Per for mance:                                   N/A
              FY 2003 Actual Per for mance:                                      1
              FY 2004 Actual Per for mance:                                      0
              FY 2005 Actual Per for mance:                                      0
              FY 2006 Actual Per for mance:                                      0
              FY 2007 Actual Per for mance:                                      2
              FY 2008 Actual Per for mance:                                      1
              FY 2009 Actual Per for mance:                                      2
              FY 2010 Tar get Per for mance:                                     0
              FY 2010 Actual Per for mance:                                      0



Discussion of FY 2010 Results: The USMS met its FY 2010 target of zero interrupted judicial
proceedings due to inadequate security.

The USMS revised the previously reported figure for the FY 2009 performance measure from one
to two interruptions. The change is a result of a subsequent review of courtroom incidents within
the definition of “interruption” as defined above.
The USMS performance measure “Total Primary Fugitives Apprehended or Cleared” supports two
DOJ strategic goals. They are:

STRATEGIC GOAL 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and
Interests of the American People – Less than 1% of the USMS Net Costs support this Goal. The
program that supports this goal is the Sex Offender Apprehension Program.

     STRATEGIC OBJECTIVE 2.3: Prevent, suppress, and intervene in crimes against
     children.

STRATEGIC GOAL 3: Ensure the Fair and Efficient Administration of Justice – More than
99% of the USMS Net Costs support this Goal. The program that supports this goal is the Fugitive
Apprehension Program.

     STRATEGIC OBJECTIVE 3.2: Ensure the apprehension of fugitives from justice.

PROGRAMS (Fugitive Apprehension Program and Sex Offender Apprehension Program):

Background/Program Objectives: The USMS has seven Regional Fugitive Task Forces (RFTF)
and approximately 82 district-based warrant squads that handle the warrant workload. A fugitive is
considered “apprehended” or “cleared” if the fugitive is physically arrested or a detainer is lodged
against a prisoner in state or local custody. The RFTFs and district warrant squads rely on
interagency fugitive task forces involving hundreds of Federal, state, and local law enforcement
officers. Combining resources enables the USMS to focus on the most violent fugitives. In
addition to domestic activities, the USMS is the lead agency responsible for extraditing (or
deporting) U.S. fugitives that have fled to foreign countries back into this country. The USMS also
apprehends foreign fugitives within the U.S. who are wanted abroad.

A “primary” Federal felony fugitive means that the USMS has the lead apprehension responsibility.
The USMS has primary jurisdiction to investigate fugitive matters involving:

    •	 Escaped Federal prisoners
    •	 Probation parole and bond default violators
    •	 Warrants generated by the Drug Enforcement Administration (DEA) and referred to the
       USMS
    •	 Any other Federal warrant referred by another Federal agency without arrest powers
    •	 Any warrant referred by state and local agencies

As part of the fugitive apprehension mission, the USMS has been designated by the Attorney
General as the lead agency for locating and apprehending non-compliant sex offenders and others
who violate the provisions of the Adam Walsh Child Protection and Safety Act. A non-compliant
sex offender is any person who fails to comply with Federal registration requirements.

The USMS maintains a centralized Warrant Information Network (WIN) within the Justice
Detainee Information System (JDIS) to collect warrant information, investigative leads, and other
criminal information. Upon receipt of a warrant from a Federal judge, Deputy U.S. Marshals query
the FBI’s National Crime Information Center (NCIC) through WIN to look for previous criminal
information. WIN data is accessible to all USMS district offices and is continuously updated as
new information is collected, thus there may be a lag in the reporting of data.

Warrant and fugitive data are verified by a random sampling of NCIC records generated by the FBI.
The USMS coordinates with district offices to verify that warrants are validated against the signed
court records. The USMS is able to enhance fugitive investigative efforts by sharing data with other
agencies, such as the Social Security Administration, DEA, Department of Agriculture, Department
of Defense, Department of State, and a variety of state and local task forces around the country.


                                 Table 4. Performance Measure:
                        Total Primary Fugitives Apprehended or Cleared
                                                Total Primary Fugitives Apprehended or
                                                               Cleared
        Performance Measure:
                                                      Number                      Percent
FY 2001 Actual Performance:                            21,522                      49%
FY 2002 Actual Performance:                            25,054                      53%
FY 2003 Actual Performance:                            27,278                      54%
FY 2004 Actual Performance:                            29,140                      55%
FY 2005 Actual Performance:                            30,434                      55%
FY 2006 Actual Performance:                            30,192                      54%
FY 2007 Actual Performance:                            33,437                      55%
FY 2008 Actual Performance:                            34,393                      55%
FY 2009 Actual Performance:                            32,860                      52%
FY 2010 Target Performance:                            33,000                      53%
FY 2010 Actual Performance:                            36,126                      56%


Discussion of FY 2010 Results: The USMS exceeded its target of 33,000 primary Federal felony
fugitives apprehended or cleared by apprehending or clearing 36,126 primary Federal felony
fugitives in FY 2010. This resulted in 56% of total primary Federal felony fugitives apprehended or
cleared which is more than half of all warrants on hand or received during FY 2010. Among those
arrested, 3,610 were for crimes of homicide, 4,857 were gang members, and 11,072 were sex
offenders. In addition, the USMS extradited or deported 805 fugitives in FY 2010.

The seven operating Regional Fugitive Task Forces (RFTF), in addition to the 75 district task
forces, are directing their investigative efforts toward reducing the number of violent crimes. These
crimes include terrorist activities, organized crime, drugs, and gang violence. The Regional
Fugitive Task Forces and District Fugitive Task Forces combined led to the arrest of 81,919 state
and local fugitive felons in FY 2010. The USMS initiated 3,025 Federal investigations into the
failure of sex offenders to meet their registration requirements.
The USMS revised the previously reported figure for the FY 2009 performance measure from
31,119 to 32,860. This adjustment was a result of the data lag referenced earlier as district offices
continuously review and update new information as it is collected.


ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE

USMS Major Systems

Justice Unified Telecommunications Network (JUTNet): The backbone infrastructure that
supports all the systems that operate within the USMS.

Warrant Information Network (WIN): Tracks Federal fugitive warrants, task force warrants,
collateral lead information, and case management information.

Automated Prisoner Scheduling System (APSS): Assists the transportation specialists in Kansas
City to schedule and track air movements electronically.

Prisoner Tracking System (PTS): Tracks all prisoner information, contract jail usage, and court
scheduling data.

Standardized Tracking, Accounting and Reporting System (STARS): The primary financial
management system of the USMS.

Justice Detainee Information System 8 (JDIS 8): JDIS 8 combines all the information from
JDIS, WIN, PTS and APSS. JDIS 8 has been designed to automate and integrate the information
captured during the prisoner booking process and subsequent USMS custody details, with warrant
and investigative information utilized to track fugitives.

Due to the costs of maintaining multiple accounting systems, delays of the DOJ’s Unified Financial
Management System (UFMS) project, and the emphasis placed on accurate and timely financial
reporting, the USMS completed implementation of STARS to the district offices in FY 2009. The
migration of the USMS district offices to STARS has helped to address deficiencies identified by
auditors within the USMS internal control framework. Future plans include migrating STARS
functions to the Department’s UFMS. UFMS is being designed and developed to allow all the
components of the DOJ to integrate their operations into one system from which they will process
all financial and procurement activity.


The Federal Managers’ Financial Integrity Act of 1982

The Federal Managers’ Financial Integrity Act (FMFIA) provides the statutory basis for
management’s responsibility for and assessment of internal accounting and administrative controls.
Such controls include program, operational, and administrative areas, as well as accounting and
financial management. FMFIA requires Federal agencies to establish controls that reasonably
ensure obligations and costs are in compliance with applicable law; funds, property, and other assets
are safeguarded against waste, loss, unauthorized use, or misappropriation; and revenues and
expenditures are properly recorded and accounted for to maintain accountability over the assets.
FMFIA also requires agencies to annually assess and report on the internal controls that protect the
integrity of Federal programs (FMFIA § 2) and whether financial management systems conform to
related requirements (FMFIA § 4).

Guidance for implementing FMFIA is provided through OMB Circular A-123. In addition to
requiring agencies to provide an assurance statement on the effectiveness of programmatic internal
controls and conformance with financial systems requirements, the Circular requires agencies to
provide an assurance statement on the effectiveness of internal control over financial reporting. The
Department requires components to provide both of the assurance statements in order to have the
information necessary to prepare the agency assurance statements.

FMFIA Assurance Statement

Management of the USMS is responsible for establishing and maintaining effective internal control
and financial management systems that meet the objectives of FMFIA. The USMS assessed its
internal control over the effectiveness and efficiency of operations and compliance with applicable
laws and regulations in accordance with OMB Circular A-123, “Management’s Responsibility for
Internal Control,” as required by Section 2 of FMFIA. The USMS also assessed whether its
financial management systems conform to government-wide requirements, as required by Section 4
of FMFIA. Based on the results of this assessment, the USMS can provide reasonable assurance
that its systems substantially conform to government-wide requirements, except for the non­
conformance related to the material weakness reported in our sub-certification on internal control
over financial reporting and further described in the Corrective Action Plan(s) accompanying the
sub-certification.

The USMS based this assertion on the following sources of information:
    •	 Monitoring of corrective action plans;
    •	 Office of the Inspector General reports;
    •	 Financial management system evaluations and reports pursuant to OMB Circular A-127,
       “Financial Management Systems;”
    •	 Evaluations and reports pursuant to the Federal Information Security Management Act
       (FISMA) and OMB Circular A-130, “Management of Federal Information Resources;” and
    •	 Management knowledge and experience gained from daily operation of component

       programs and systems of accounting and administrative controls.


The material weakness in internal controls over accounting for undelivered orders and accounts
payable was related to the processing and recording of obligations as undelivered orders and
accounts payable. The results of testing identified deficiencies in ensuring periodic reviews of
obligations were performed; calculating undelivered orders and delivered orders; ensuring
transactions were properly authorized and approved; ensuring transactions were processed in
accordance with the prompt payment rules; ensuring sufficient documentation for procurement
actions; and ensuring travel authorizations and reimbursements were adequately processed.
USMS internal control has improved through the corrective actions implemented by management.
As stated in the June 30, 2010 sub-certification, the USMS has implemented the following remedial
actions, as related to undelivered orders (UDO) and accounts payable:

    •   an institutionalized quarterly UDO review,
    •   periodic control testing of UDO review (detective control),
    •   targeted UDO review and accrual methodology training, and
    •   standardization and documentation of accrual methodologies.


Internal Controls Program

USMS management continues to support and commit resources to Departmental component internal
control programs. The objective of the USMS’s internal control program is to provide reasonable
assurance that operations are effective, efficient, and comply with applicable laws and regulations;
financial reporting is reliable; and assets are safeguarded against waste, loss, and unauthorized use.
USMS management identifies issues of concern through a network of oversight councils and
internal review teams. These include the USMS Office of Inspections, the Department’s
OMB Circular A-123 Senior Assessment Team, and the Justice Management Division’s Internal
Review and Evaluation Office and Quality Control and Compliance Group. USMS management
also considers reports issued by the Office of the Inspector General in its evaluation of internal
control.

The USMS commitment to management excellence, accountability, and compliance with applicable
laws and regulations is evidenced by efforts to establish reasonable controls and make sound
determinations on corrective actions.


Legal Compliance

Federal Financial Management Improvement Act of 1996

The Federal Financial Management Improvement Act (FFMIA) was designed to improve Federal
financial and program managers’ accountability, provide better information for decision-making,
and improve the efficiency and effectiveness of Federal programs. FFMIA requires agencies to
have financial management systems that substantially comply with Federal financial management
systems requirements, applicable Federal accounting standards, and the U.S. Standard General
Ledger (USSGL) at the transaction level. Furthermore, the Act requires independent auditors to
report on agency compliance with the three requirements in the financial statement audit report.
FISMA states that to be substantially compliant with FFMIA, there are to be no significant
deficiencies in information security policies, procedures, or practices.
FFMIA Compliance Determination

USMS management assessed its financial management systems for compliance with FFMIA and
determined that the systems were not fully compliant in FY 2010.

    •	 The USMS’s financial management system, STARS, does not meet Federal financial
       management systems requirements established in OMB Circular No. A-127, “Financial
       Management Systems,” because STARS lacks integrated subsidiary records to support
       certain material account balances. USMS must rely on manually-prepared subsidiary
       ledgers and manual processes to generate financial reports.
    •	 The USMS’s posting of undelivered orders and accounts payable transactions has some
       departure from Federal accounting standards (promulgated by the Federal Accounting
       Standards Advisory Board) and the form and content provisions of OMB Circular No. A­
       136, “Financial Reporting Requirements.”

POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS

USMS financial statements document existing, currently-known events, conditions and trends.
Through the agency financial transactions, one can learn how the USMS has used its appropriated
resources to meet its strategic goals. What is not evident are the anticipated future demands that
will be placed upon the USMS in FY 2011 and beyond. The President has signed executive orders
to close the Guantanamo Bay military detention facility. A number of the detainees will be
introduced into the Federal judicial system rather than be tried in military tribunals. The logistical
and tactical planning to transport and produce these high-threat individuals to court requires an
unprecedented level of security and resources. The workload associated with these detainees affects
all operational and administrative areas of the agency. The USMS is working with the Department
of Defense, Department of State, and other DOJ components to ensure that this new workload can
be handled without compromising national security.

In addition, beginning in FY 2011, ICE will no longer be utilizing JPATS for the transportation of
ICE detainees. The transportation of ICE detainees accounted for a substantial portion of the
workload and flight hours for JPATS; therefore, the DHS decision to withdraw will have a major
impact on the operations of JPATS. In response to the ICE withdrawal and the related reduction in
workload, JPATS will close some facilities and eliminate positions in multiple locations.
LIMITATIONS OF THE FINANCIAL STATEMENTS

  •	 USMS financial statements have been prepared to report the financial position and results
     of agency operations, pursuant to the requirements of 31 U.S.C. 3515(b).
  •	 While the statements have been prepared from the books and records of the USMS in
     accordance with U.S. generally accepted accounting principles for Federal entities and the
     formats prescribed by OMB, the statements are in addition to the financial reports used to
     monitor and control budgetary resources which are prepared from the same books and
     records.
  •	 The statements should be read with the realization that they are for a component of the U.S.
     Federal government, a sovereign entity.
Attachment 1 

Attachment 2


               THE 94 USMS DISTRICT OFFICES




                            - 19 -
This page left intentionally blank.
	




              - 20 -
U.S. DEPARTMENT OF JUSTICE


UNITED STATES MARSHALS SERVICE



     INDEPENDENT AUDITORS’ REPORTS




                 - 21 -
This page left intentionally blank.
	




              - 22 -
                                INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS


Inspector General
United States Department of Justice

Director
United States Marshals Service
United States Department of Justice

We have audited the accompanying Consolidated Balance Sheets of the United States Marshals Service (USMS), a
component of the United States Department of Justice (DOJ), as of September 30, 2010, and 2009, and the related
Consolidated Statements of Net Cost, Consolidated Statements of Changes in Net Position, and Combined
Statements of Budgetary Resources for the years then ended. These financial statements are the responsibility of
the USMS’s management. Our responsibility is to express an opinion on these financial statements based on our
audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended by OMB Memorandum M-09-33. Those standards and
OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the financial statements are free of material misstatement. An audit includes consideration of internal
control over financial reporting as a basis for designing audit procedures that are appropriate in the circumstances,
but not for the purpose of expressing an opinion on the effectiveness of the USMS’s internal control over financial
reporting. Accordingly, we express no such opinion. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in the financial statements. An audit also includes assessing the
accounting principles used, and significant estimates made by management, as well as evaluating the overall
financial statement presentation. We believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the consolidated
financial position of the USMS as of September 30, 2010, and 2009; and its consolidated net costs, consolidated
changes in net position, and combined budgetary resources for the years then ended, in conformity with
accounting principles generally accepted in the United States of America.

The information in the Management’s Discussion and Analysis and Required Supplementary Information sections is
not a required part of the basic consolidated financial statements, but is supplementary information required by
U.S. generally accepted accounting principles, or by OMB Circular No. A-136, Financial Reporting Requirements.
We have applied certain limited procedures, which consisted principally of inquiries of management regarding the
methods of measurement and presentation of this information. However, we did not audit this information and,
accordingly, we express no opinion on it.

In accordance with Government Auditing Standards, we have also issued our reports dated November 3, 2010, on
our consideration of the USMS’s internal control over financial reporting and on our tests of compliance with
certain provisions of applicable laws and regulations. The purpose of those reports is to describe the scope of our
testing of internal control over financial reporting and compliance and the results of that testing, and not to
provide an opinion on the internal control over financial reporting or on compliance. Those reports are an integral
part of an audit performed in accordance with Government Auditing Standards and should be read in conjunction
with this report in assessing the results of our audits.


                                                       - 23 -
COTTON & COMPANY LLP




Catherine L. Nocera, CPA, CISA
Partner

November 3, 2010
Alexandria, Virginia




                                 - 24 -
                    INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING


Inspector General
United States Department of Justice

Director
United States Marshals Service
United States Department of Justice

We have audited the Consolidated Balance Sheets of the United States Marshals Service (USMS), a component of
the United States Department of Justice (DOJ), as of September 30, 2010, and 2009, and the related Consolidated
Statements of Net Cost, Consolidated Statements of Changes in Net Position, and Combined Statements of
Budgetary Resources for the years then ended, and issued our report thereon dated November 3, 2010. We
conducted our audits in accordance with auditing standards generally accepted in the United States of America;
the standards applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended by OMB Memorandum M-09-33.

In planning and performing our audits, we considered the USMS’s internal control over financial reporting as a
basis for designing our auditing procedures for the purpose of expressing our opinion on the financial statements,
but not for the purpose of expressing an opinion on the effectiveness of the USMS’s internal control over financial
reporting. Accordingly, we do not express an opinion on the effectiveness of the USMS’s internal control over
financial reporting or on management’s assertion on internal control included in Management’s Discussion and
Analysis. We limited our internal control testing to only those controls necessary to achieve the objectives
described in Government Auditing Standards and OMB Bulletin No. 07-04. We did not test all internal controls
relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of 1982, such
as controls relevant to ensuring efficient operations.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph and was not designed to identify all deficiencies in internal control over financial reporting
that might be significant deficiencies or material weaknesses. Therefore, there can be no assurance that all
deficiencies, significant deficiencies, or material weaknesses have been identified. However, as discussed below,
we identified certain deficiencies in internal control over financial reporting that, when combined, we consider to
be a material weakness.

A deficiency in internal control exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and correct
misstatements on a timely basis. A material weakness is a deficiency, or combination of deficiencies, in internal
control such that there is a reasonable possibility that a material misstatement of the entity’s financial statements
will not be prevented, or detected and corrected on a timely basis. We consider the following deficiency in the
USMS’s internal control over financial reporting to be a material weakness.

The USMS’s response to the finding identified in our audit is included after each recommendation. We did not
audit the USMS’s response and, accordingly, we express no opinion on it.




                                                      - 25 -
FUNDS MANAGEMENT CONTROLS NEED IMPROVEMENT (MATERIAL WEAKNESS) (REPEAT)

The USMS does not have adequate financial and compliance controls to ensure that obligation transactions are
executed and recorded in accordance with laws and regulations, and that related undelivered orders and accounts
payable balances are accurate and complete. During fiscal year 2009, USMS management implemented
procedures to perform quarterly reviews and certifications of headquarters and district office undelivered orders
and accounts payable balances. The certification process is still evolving; it was refined throughout fiscal year
2010. During fiscal year 2010, the USMS created the Audit Coordination and Remediation (ACR) team, which
serves as the audit liaison, recommends and implements funds management process improvements, and advises
the Financial Services Division on remediation strategies. The ACR team developed a Corrective Action Plan (CAP)
to address the previously reported material weakness related to undelivered orders and accounts payable. The
control procedures outlined in the CAP appear to be well designed and should address the control weaknesses
identified during this and prior audits. However, elements of the CAP were implemented throughout fiscal year
2010, and it was not yet fully effective to reduce the sample error rates to an insignificant level.

During interim and year-end testing, we identified the following accounting errors and instances of non-
compliance with accounting standards, OMB Circular No. A-11, Preparation, Submission, and Execution of the
Budget, the United States Standard General Ledger (USSGL), and other accounting guidance.

A.	 UNDELIVERED ORDERS
We selected and reviewed four sample populations of undelivered order transactions during interim and year-end
testing. We noted significant accounting errors and instances of noncompliance, which resulted in the following
known and likely misstatements.

                                                 UNDELIVERED ORDERS
                                            FISCAL YEAR 2010 TEST RESULTS
                                                  Number of
                                                    Errors/
                                                 Transactions
                                                                                                                 1
   Sample Population                                Tested             Known Errors         Likely Misstatement
                                                                      $5.8 million net         $17.9 million net
   Headquarters (March 31, 2010)                    37/152
                                                                      overstatement             overstatement
                                                                    $650 thousand net           $2.6 million net
   District Offices (March 31, 2010)                 16/45
                                                                      overstatement             overstatement
                                                                      $3.4 million net       $861 thousand net
   Headquarters (June 30, 2010)                     25/148
                                                                      overstatement            understatement
   Headquarters and District Offices	                                 $2.9 million net         $18.7 million net
                                                    17/101
   (September 30, 2010)	                                              overstatement             overstatement
 1
   Each transaction tested has a unique weight in relation to the total population; therefore, the likely
 misstatement will not be in linear proportion to the known errors. In addition, a known net understatement may
 project to a likely net overstatement.

The accounting errors and instances of non-compliance are discussed below.

Headquarters (March 31, 2010)
   •	  Fourteen undelivered order transactions were overstated by $4.2 million because the USMS did not
       record an accrual for goods and services received as of March 31, 2010.

    •	   Nine undelivered order transactions were overstated by a net $489 thousand because of errors in
         calculating accounts payable accruals.




                                                     - 26 -
    •	   Five undelivered order transactions were understated by a net $141 thousand because approved
         modification increases or deobligations were not recorded in STARS as of March 31, 2010 and one
         modification increase was recorded in STARS although it was not approved or valid.

    •	   Seven instances in which the period of performance had expired or the contract was completed prior to
         the beginning of fiscal year 2010, and remaining undelivered order amounts had not been deobligated.
         This resulted in a $734 thousand overstatement.

    •	   Two undelivered order transactions were overstated by a net $505 thousand because amounts recorded
         in STARS did not agree to the underlying source documents. For one transaction, the USMS could not
         provide supporting documents for the entire amount obligated in STARS, and for the other item, the
         supporting documentation for the amount paid was less than the amount recorded in STARS.

District Offices (March 31, 2010)
     •	   Nine undelivered order transactions were overstated by a total $606 thousand because the USMS did not
          record an accrual for goods and services received as of March 31, 2010. Accruals were not posted in
          some instances, because of limitations with the current purchase card accrual process. The USMS records
          purchase card accruals based on payment information provided by the bank issuing the purchase cards,
          which does not capture instances in which the USMS has received goods or services but payment has not
          been initiated by the vendor providing the goods or services.

    •	   Two undelivered order transactions were overstated by $25 thousand because the same obligation was
         recorded twice for one item and the obligated amount exceeded the source documents for the other
         item.

    •	   Two undelivered order transactions were understated by $4 thousand because the full contract value had
         not been obligated even though the clause referencing “availability of funds” had been removed from the
         contract. In addition, an accrual for March services was not recorded for one of these transactions.

    •	   One undelivered order transaction was understated because a payment was posted against it in error.
         The payment should have been posted to the same document number but a different budget fiscal year.
         The undelivered order balance was not misstated, in total, because of this error.

    •	   Two undelivered order transactions were overstated by $22 thousand. The accounting entries could not
         be tied to the underlying source documentation.

Headquarters (June 30, 2010)
   •	  Nine undelivered order transactions were overstated by $2.2 million because the USMS did not record an
       accrual for goods and services received as of June 30, 2010.

    •	   Three undelivered order transactions were overstated by a net $22 thousand because of errors in
         calculating accounts payable accruals.

    •	   Five undelivered order transactions were overstated by a net $141 thousand because the obligation was
         not recorded correctly. For one item, the USMS recorded an obligation for the entire revised contract
         amount rather than only the increase. For another item, the USMS obligated amounts in excess of the
         original plus modifications. For three items, the entire contract amount had not been obligated in STARS.

    •	   Five undelivered order transactions were overstated by $944 thousand because the period of
         performance had expired or the contract was completed prior to the beginning of fiscal year 2010, and
         remaining undelivered order amounts had not been deobligated.

    •	   Three undelivered order transactions were overstated by a net $59 thousand because amounts recorded
         in STARS did not agree to the underlying source documents. For one transaction, the USMS stated that


                                                     - 27 -
         the transaction was recorded during the STARS conversion process and should be deobligated. For
         another item, the supporting documentation for obligated amounts and amounts paid did not agree to
         STARS. For the third transaction, the USMS did not process a refund in STARS.

Headquarters and District Offices (September 30, 2010)
   •	  Seven undelivered order transactions were overstated by $2.9 million because the USMS did not record
       an accrual for goods and services received as of September 30, 2010. For two transactions, the accrual
       was not recorded because of the limitation with the USMS’s current purchase card accrual process,
       discussed previously.

    •	   Four undelivered order transactions were overstated by $40 thousand because the obligation was not
         recorded correctly. For three items, the USMS recorded the obligation based on the requisition amount
         rather than the purchase order amount. For another item, the recorded obligation was not supported by
         a valid obligating document.

    •	   Two undelivered order transactions were understated by $361 thousand; the USMS could not provide
         supporting documentation for the recorded accruals.

    •	   Two undelivered order transactions were overstated by $344 thousand; the period of performance had
         expired at September 30, 2009 for one item, and the other item was for a canceled construction project.
         Remaining undelivered order amounts had not been deobligated.

    •	   Two undelivered order transactions were understated by $49 thousand because an error was made when
         calculating the accrual for one item and an accrual for August services was not reversed after the invoice
         was paid for the second item.


B.	 DELIVERED ORDERS – OBLIGATIONS UNPAID (ACCOUNTS PAYABLE)
We selected and reviewed four sample populations of accounts payable transactions during interim and year-end
testing. We noted significant accounting errors and instances of noncompliance, which resulted in the following
known and likely misstatements.

                                         DELIVERED ORDERS – OBLIGATIONS UNPAID
                                              FISCAL YEAR 2010 TEST RESULTS
                                                   Number of
                                              Errors/Transactions
                                                                                                                   2
Sample Population                                    Tested              Known Errors         Likely Misstatement
                                                                            $1 million            $704 thousand
Headquarters (March 31, 2010)                          1/32
                                                                         overstatement            overstatement
                                                                       $12 thousand net          $9.2 million net
District Offices (March 31, 2010)	                    10/57
                                                                         overstatement            overstatement
                                                                        $1.1 million net         $6.3 million net
Headquarters (June 30, 2010)	                         4/43
                                                                        understatement           understatement
Headquarters and District Offices	                                      $1.7 million net         $15.8 million net
                                                      18/61
(September 30, 2010)	                                                   understatement           understatement
2
  Each transaction tested has a unique weight in relation to the total population; therefore, the likely misstatement
will not be in linear proportion to the known errors. In addition, a known net overstatement may project to a likely
net understatement or a known net understatement may project to a likely net overstatement.




                                                      - 28 -
The accounting errors and instances of non-compliance are discussed below.

Headquarters (March 31, 2010)
   •	  One accounts payable transaction in which the accrual was overstated by approximately $1 million
       because the methodology used to calculate the unidentified IPAC accrual did not take into consideration
       provider-listing accruals that were already posted.

District Offices (March 31, 2010)
     •	   One accounts payable transaction in which the accounts payable was overstated by $14 thousand
          because the district office accrued the remaining undelivered order balance without regard to the
          estimated cost of goods or services provided but not paid for.

    •	   Nine accounts payable transactions at one district office in which documentation to support recorded
         accounts payable balances was not adequate, resulting in understated accounts payable totaling a net $2
         thousand. In some instances, explanations for accounts payable accrual estimates could not be provided,
         and in other instances the USM-268a, Jail Utilization Report, or other supporting source documentation
         was not retained.

Headquarters (June 30, 2010)
   •	  Three accounts payable transactions in which the USMS did not accrue for goods or services received but
       not yet paid, causing the accounts payable balance to be understated by approximately $1.2 million. For
       one transaction, the accrual was not recorded because of the limitation with the USMS’s current purchase
       card accrual process, discussed previously.

    •	   One accounts payable transaction in which the accrual was overstated by $74 thousand because the
         USMS accrued the remaining undelivered order balance rather than calculating the accrual based on its
         established accrual methodology.

Headquarters and District Offices (September 30, 2010)
   •	  Five accounts payable transactions were understated by $1.5 million because the USMS did not record an
       accrual for goods and services received as of September 30, 2010. Three items related to court security
       officer accruals, one related to prisoner housing costs, and one related to information technology support
       services.

    •	   Five accounts payable transactions were overstated by a net $58 thousand because the USMS erred in
         calculating its accounts payable accruals. The USMS did not use the USM-268a report, or did not use the
         correct USM-268a report for two items; erred in applying its accrual methodology for one item; did not
         reduce its accounts payable accrual by the amount that exceeded the actual July disbursement; and
         accrued for September services twice.

    •	   Eight accounts payable transactions were not adequately supported by source documentation. Seven
         items related to prisoner housing accruals, including three items that were accrued based on amounts
         provided to the district offices by the Office of Budget. The Office of Budget amounts were not
         supported, but appeared to be calculated based on remaining undelivered order balances for prisoner
         housing obligations rather than an analysis of services received but not paid for as of year-end. In
         addition, one item related to court security officer accruals. We used the best information available at
         the time of our audit to determine an appropriate accounts payable estimate for these transactions; we
         calculated a net understatement of $289 thousand.

C.	 PRISONER MEDICAL OBLIGATIONS AND ACCOUNTS PAYABLE
The USMS does not have consistent procedures or policies in place for estimating and recording medical
obligations incurred by the district offices. During fiscal year 2010, the USMS established Medical Services
Procedures that were scheduled to be implemented in July 2010 under a pilot program. These procedures were
not implemented when we conducted district office site visits during June and July. Based on discussions with


                                                     - 29 -
district office personnel during the site visits, we determined that district offices were applying the same
inconsistent procedures the USMS has used in prior years.

D. UNAUTHORIZED COMMITMENTS
The USMS made unauthorized commitments during fiscal year 2010, resulting in 16 contract ratifications
authorizing payments totaling about $2.3 million. Unauthorized commitments were made for services including
security system monitoring, court security officers, guard services, and prisoner medical services and prescriptions.
We reviewed two sample ratifications. For both items, we noted that incumbent contractors provided services
beyond the contract performance periods when new contract awards were delayed.

In addition, 24 ratification actions totaling approximately $2.2 million were in process pending receipt of additional
information from the program offices. Eleven of these 24 ratification actions had been identified as possible
ratifications prior to June 30, 2010. No resolution had been achieved as of year-end. Unauthorized commitments
could result in Anti-Deficiency Act violations or other funds management concerns if funds are not sufficient to
cover the unauthorized commitments.


Statement of Federal Financial Accounting Standards No. 5, Accounting for Liabilities of the Federal Government,
paragraphs 22 and 23, state that a liability and the corresponding expense should be recognized during the period
when an exchange transaction takes place.

Title 31 U.S.C. §1501(a) states:

         An amount shall be recorded as an obligation of the United States Government only when
         supported by documentary evidence of: (1) a binding agreement . . .; (2) a loan agreement . . .;
         (3) an order required by law to be placed with an agency; (4) an order issued under a law
         authorizing purchases without advertising . . .; (5) a grant or subsidy payable . . .; (6) a liability
         that may result from pending litigation; (7) employment or services of persons or expenses of
         travel under law; (8) services provided by public utilities; or (9) other legal liability of the
         Government against an available appropriation or fund.

OMB Circular A-11, Preparation, Submission, and Execution of the Budget, states that an obligation is a legally
binding agreement that will result in outlays that will occur either immediately or in the future. An obligation is
incurred when an order is placed or a contract is signed that requires the Government to make payments to the
public or to another Government agency.

The USSGL defines an undelivered order as “the amount of goods and/or services ordered which have not been
actually or constructively received.”

USMS Directive 5.1, Accounting for Commitments and Obligations, states “no amount shall be recorded as an
obligation unless supported by documentary evidence of transactions authorized by law.” It also states that
“program managers are responsible for the accurate and timely accounting of their workplans’ commitments and
obligations,” and requires program managers to “ensure that a monthly review of their workplan obligation(s) is
performed.”

OMB Circular A-123, Management’s Responsibility for Internal Control. Section IIA, Control Environment, states:

         …management must clearly… uphold the need for personnel to possess and maintain the proper
         knowledge and skills to perform their assigned duties as well as understand the importance of
         maintaining effective internal control within the organization.




                                                         - 30 -
OMB Circular A-123, Appendix A, Section IIA, Objectives of Internal Control over Financial Reporting, states:

         Reliability of financial reporting means that management can reasonably make the following
         assertions: … Documentation for internal control, all transactions, and other significant events is
         readily available for examination.

The Federal Acquisition Regulation (FAR), Subpart 1.6, Section 1.601 (a) states: “contracts may be entered into
and signed on behalf of the Government only by contracting officers.” Additionally, Subpart 1.6, Section 1.602-1
(b) states: “no contract shall be entered into unless the contracting officer ensures that all requirements of law,
executive orders, regulations, and all other applicable procedures... have been met.”

RECOMMENDATIONS

We recommend the USMS:

1.	 Enhance the ACR team’s efforts to ensure that accruals for goods and services provided but not paid for are
    properly calculated, recorded timely, and adequately supported, and that undelivered orders are valid. Efforts
    should include:

    •	   Development and documentation of accrual policies and procedures, including methodologies for specific
         types of accrual transactions;

    •	   Development and documentation of policies and procedures for conducting periodic reviews of

         undelivered orders and accounts payable balances and process controls;


    •	   Review, assessment, and recommendations for improving the control environment and control activities;

    •	   Continued training of headquarters and district office personnel;

    •	   Continued emphasis on periodic testing of undelivered orders and accounts payable transactions to
         identify and correct misstatements; and

    •	   Documentation of control and substantive test results, including completed checklists; evidence of
         supervisory review and approval for corrective actions; evidence that corrective action was taken; and
         performance metrics (such as transaction population, sample size, error rate, and corrective actions), so
         that progress can be measured and resources can be shifted and prioritized accordingly.
         (Updated)

Management Response:

    USMS management concurs with this recommendation. In an effort to address current and prior year audit
    findings and recommendations and strengthen the Agency’s overall management of undelivered orders, the
    USMS’s financial management has implemented a number of activities in the second half of FY 2010 and plans
    to continue these activities in FY 2011.

    The USMS has increased the support and visibility of the Audit Coordination and Remediation (ACR) team. The
    ACR team currently serves as an audit liaison, recommends and implements improvements in the funds
    management process, and advises the Office of the Chief Financial Officer (OCFO) on remediation strategies.
    In order to maximize the impact of ACR activities, the team has primarily focused on six material USMS
    divisions comprised of eight-five percent of the USMS headquarters’ budget as of March 31, 2010 - Financial
    Services Division (FSD), Investigative Operations Division (IOD), Information Technology Division (ITD), Judicial
    Security Division (JSD), Management Support Division (MSD), and Justice Prisoner and Alien Transportation
    System (JPATS). Within each of the six aforementioned divisions, the ACR team has documented the procure-
    to-pay process and the internal control environment. ACR will perform testing on the controls’ operating


                                                      - 31 -
    effectiveness, provide recommendations on control improvements, and help to implement business process
    and control improvements. ACR will address additional divisions and district offices during FY 2011.

    The ACR team developed and delivered one-on-one specialized accruals and undelivered orders training to
    applicable staff within the six program offices (as referenced earlier) on the estimation and recording of
    accruals and the process of verifying and validating undelivered orders. In addition, USMS will standardize
    accrual procedures to incorporate appropriate review, approval controls, and estimation needed to prevent
    and detect inaccurate accrual transactions.

    In addition to accrual improvements, the ACR team has developed a Corrective Action Plan (CAP) for the
    Undelivered Order (UDO) review process. This CAP addresses audit findings on UDOs and has the following
    key components that the ACR team will execute:

        •	   add guidance on roles and responsibilities for UDO review to USMS Directive 5.1, paragraph c.3
             Monitoring Obligations;
        •	   update UDO review checklist and monitor results of reviews;
        •	   deliver training on verification and validation of UDOs;
        •	   standardize the UDO review process to incorporate consistent review and approval processes and
             correct accrual methodologies;
        •	   test whether key controls are working as intended;
        •	   develop a reporting template and tracking tool used to report consistently on results of UDO review;
             and
        •	   perform periodic tests and evaluations of controls.

    This CAP was initiated in 2010 for the six HQ divisions referenced previously. In FY 2011, the CAP will be
    expanded to encompass additional headquarters divisions and offices, as well as district offices.

    USMS management also conducted the UDO Quarterly Review process in September 2010 for 12
    headquarters divisions, which included six divisions in addition to those mentioned previously. Experienced
    USMS staff were trained and supported by ACR staff to conduct a thorough review of their open obligations
    portfolio. This process will be completed on a quarterly basis in FY 2011 until the existing monthly open
    obligation review is comparably strengthened.


2.	 Enhance supervisory review and approval controls, including review of source documentation, calculations,
    and posting logic for accounts payable, obligations, and deobligation transactions. (Updated)

Management Response:

    USMS management concurs with this recommendation. The USMS has escalated the open obligation review
    process to be directly under the purview of the Assistant Directors. On a quarterly basis, financial
    performance scorecards are completed to monitor and track the progress of the open obligations reporting
    compliance for all headquarters staff offices and divisions.

    USMS management also initiated the UDO Quarterly Review process in June 2010 for the six divisions
    referenced in management response #1. The USMS extended and enhanced this process through repetition
    and refinement in quarter 4 and in FY 2011. Experienced USMS staff were trained and supported by ACR staff
    to conduct a thorough review of their open obligations portfolio. Division staff utilized standardized checklists
    (e.g., examined period of performance to determine expiration) and other guidance to determine whether an
    individual UDO was valid and verified amounts were properly recorded. USMS management recognized the
    further need to formalize development and retention of documentation. Specifically, USMS management
    recognized the requirement to understand which obligations were examined, which ones required
    adjustments, and exactly what adjustments were made in order to produce an acceptable audit trail and



                                                      - 32 -
    institutionalize the process as a quarterly detective control. This process will be completed on a quarterly
    basis until the existing monthly open obligation review is comparably strengthened.


3.	 Enhance procedures to ensure that obligations are recorded timely after the period of continuing resolution
    ends, and develop procedures to ensure that appropriate “availability of funds” clauses are included in all
    agreements that are not fully obligated. (Updated)

Management Response:

    USMS management concurs with this recommendation. The USMS will continue its training efforts in FY 2011
    to ensure staff and contractors understand their responsibilities for timely recording of obligations after a
    continuing resolution has ended or appropriated funds have been allocated to their workplan. The Financial
    Services Division will work closely with program offices to ensure that contracts are properly recorded in the
    financial system, per OMB Circular A-11, and clearly articulate the funds that are available. The Offices of
    Finance and Budget will work closely with program offices to ensure that all reimbursable agreements are
    prepared properly to reflect the availability of funds are fully obligated in STARS on a timely basis.


4.	 Develop procedures to ensure that purchase card accruals are recorded for all goods and services received,
    regardless of whether the vendor has processed the payment for the goods or services. (New)

Management Response:

    USMS management concurs with this recommendation. In addition to assessing the control environment
    around accrued expenses, the ACR team developed a comprehensive CAP for the accrual process. Execution
    of that CAP began with the development and delivery of an accrual training/working session with each of the
    six material headquarters divisions during FY 2010. This comprehensive training addressed all aspects of the
    accrual process, including: what constitutes proper funds control management, the monthly open obligations
    review, correct reporting of received goods and services, Federal Laws and USMS policy, entry of receiving
    information in the financial system, and accrual estimation methodologies for various categories of goods and
    services. The intent of the training is to provide a consistently applied methodology to record accruals and to
    reinforce that proper oversight and management approvals are essential to prevent errors such as posting of
    duplicate accruals. In FY 2011, this training will be expanded to encompass remaining headquarters divisions
    and districts.


5.	 Review financial management and accounting processes in place at district offices to identify process,
    knowledge and training gaps affecting the execution of and adherence to the USMS directives and policies;
    implement corrective action to address the identified gaps; and develop and implement procedures for
    maintaining source documentation that can be easily retrieved for review and audit purposes. (New)

Management Response:

    USMS management concurs with this recommendation. The Associate Director for Administration issued a
    memorandum entitled Fiscal Year 2010 District and Headquarters Closeout Instructions on July 2, 2010, which
    addressed the review and reconciliation of UDOs to source documents, as well as processing and reconciling
    receiving reports against accounts payable. This instruction was distributed to all Chief Deputy US Marshals,
    Assistant Directors, Staff Offices, and Administrative Officers (AOs) throughout the USMS, including all district
    offices.

    Starting in FY 2011, the ACR team will distribute UDO and accrual training materials to district offices. The
    training will be reinforced through web-enabled technology to address the importance of maintaining



                                                      - 33 -
    adequate supporting documentation for obligation and accounts payable amounts recorded in the general
    ledger. District training will also stress the importance of retaining supporting documentation for audit review
    and testing. The ACR team will examine selected district office financial management policies and procedures
    and perform UDO and Accounts Payable testing in fiscal year 2011 to help verify that transactions are well
    supported, and maintained by the district offices’ leadership. The ACR team will then update the CAP based
    on gaps noted in this testing.

    In addition, the OCFO and ACR team implemented a standardized checklist to be utilized during Quarterly UDO
    reviews that includes a documentation attribute to provide evidence that transactions were accurately
    initiated, processed, and recorded; and that adequate trails of supporting documentation exist for
    transactions. The scope of the quarterly open obligation review will be expanded to include the district offices
    at the beginning of fiscal year 2011.


6.	 Fully implement procedures developed during fiscal year 2010 to ensure district office personnel utilize a
    consistent and reasonable methodology for recording prisoner medical obligations and accruals. (Updated)

Management Response:

    USMS management concurs with this recommendation. USMS policies and procedures provide clear
    guidelines on the medical treatment of prisoners. In cases of emergency care and life-threatening situations,
    USMS follows all policies necessary to ensure that the prisoners are treated in a timely manner. Historically,
    exceptions to policy occurred during times of emergency care when prisoners required immediate medical
    attention.

    As of July 1, 2010, USMS began employing the services of an independent vendor to oversee the complete
    prisoner medical process. The new vendor will standardize management of all costs associated with the
    treatment of prisoners. Through this vendor and through new policy the USMS will continue strengthening
    controls around the prisoner medical process. USMS plans to continue implementation of the new process
    throughout all district offices in FY 2011.


7.	 Coordinate efforts among the Office of Procurement, the Office of Budget, and the program offices to identify
    all unauthorized commitments and ensure that ratifications are completed in a timely manner. In addition, we
    recommend that the USMS provide Federal Acquisition Regulation training to appropriate personnel to
    minimize instances of unauthorized commitments in the future. (Repeat)

Management Response:

    USMS management concurs with this recommendation. Chief Deputy and Financial Management Training
    held in March, April, May, July, and August 2010 included a discussion of unauthorized commitments resulting
    in ratification. In response to FY 2009 audit findings, individuals involved in unauthorized commitments have
    been notified that all violations will be reported to the Office of Internal Investigations and Employee
    Relations Division, and may result in personal financial consequences and/or disciplinary action, up to and
    including removal. In addition, the Office of Procurement is updating USMS Directive 6.1 to include a
    “Ratification Guide” which provides examples of situations that could lead to unauthorized commitments.
    Managers whose employees are involved in unauthorized commitments will be asked to provide a corrective
    action plan; i.e., training or other preventive measures to avoid future violations. Pursuant to DOJ
    Procurement Guidance Document 10-08, when a Contracting Officer becomes aware of an unauthorized
    commitment, a descriptive memorandum satisfying FAR 1.602-3(c) with supportive materials will be
    submitted to an individual with ratification authority within 30 days of such discovery. The ratification official
    will review the unauthorized commitment and approve or disapprove of the ratification within 60 days.




                                                      - 34 -
    Copies of all ratifications will be submitted to the Department’s Procurement Executive within 30 days of
    ratification.


                                           *        *        *       *

We provide the current status of open recommendations from prior years in the following Exhibit.


This report is intended solely for the information and use of the USMS’s management, DOJ Office of the Inspector
General, OMB, the U.S. Government Accountability Office, and the U.S. Congress; it is not intended to be and
should not be used by anyone other than these specified parties.

COTTON & COMPANY LLP




Catherine L. Nocera, CPA, CISA
Partner

November 3, 2010
Alexandria, Virginia




                                                    - 35 -
                                                                                           EXHIBIT


                         STATUS OF PRIOR YEARS’ FINDINGS AND RECOMMENDATIONS

As required by Government Auditing Standards issued by the Comptroller General of the United States, and by
OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended by OMB Memorandum
M-09-33, we have reviewed the status of prior years’ findings and recommendations. The following table provides
our assessment of the progress the USMS has made in correcting the previously identified significant deficiencies.
We also provide the Office of the Inspector General report number where the deficiency was reported, our
recommendation for improvement, and the status of the recommendation as of the end of fiscal year 2010.

                  Significant
  Report                                              Recommendation                                  Status
                  Deficiency
Annual        Improvements          Recommendation No. 9: Continue with planned                      Completed
Financial     Needed to             efforts to upgrade servers that will allow the USMS to
Statement     Strengthen            enable auditing at the Informix database level for the
Fiscal Year   Information           FMS.
2007          System Controls
Report No.
08-15




Annual        Funds                 Recommendation No. 4: Coordinate efforts among                  In Process
Financial     Management            the Office of Procurement, the Office of Budget, and        (Fiscal Year 2010
Statement     Controls Need         the program offices to identify all unauthorized            Recommendation
Fiscal Year   Improvement           commitments and ensure that ratifications are                     No. 7)
2008                                completed in a timely manner. In addition, we
Report No.                          recommend that the USMS provide Federal
09-13                               Acquisition Regulation training to appropriate
                                    personnel to minimize instances of unauthorized
                                    commitments in the future.

              Improvements          Recommendation No. 11: Fully implement                           Completed
              Needed to             procedures for monitoring the FMS and STARS system
              Strengthen            and application activities to ensure that reviews are
              Information           documented; potential issues are identified and
              System Controls       investigated; and, if needed, issues are reported to
                                    management.

                                    Recommendation No. 12: Develop and implement                     Completed
                                    policies and procedures, including roles and
                                    responsibilities for the process of monitoring JCON
                                    logs; define security events that require monitoring
                                    and provide guidance on how these events will be
                                    monitored; and document investigations of events
                                    which require management follow-up.




                                                     - 36 -
                  Significant
  Report                                           Recommendation                                Status
                  Deficiency
Annual        Improvements      Recommendation No. 13: Ensure individuals                      Completed
Financial     Needed to         responsible for account reviews adhere to the USMS
Statement     Strengthen        mandated policies and procedures for reviewing
Fiscal Year   Information       accounts and perform more frequent and thorough
2008          System Controls   reviews of inactive administrator and user accounts.
Report No.
09-13




Annual        Funds             Recommendation No. 1: Enhance supervisory review               In Process
Financial     Management        and approval controls, including review of source           (Updated by Fiscal
Statement     Controls Need     documentation, calculations, and posting logic for             Year 2010
Fiscal Year   Improvement       accounts payable, obligations, and deobligation             Recommendation
2009                            transactions, and ensure that adequate resources are             No. 2)
Report No.                      available to properly segregate the supervisory review
10-09                           and approval of, and posting of transactions in STARS.

                                Recommendation No. 2: Develop procedures to                    In Process
                                ensure that obligations are recorded timely after the       (Updated by Fiscal
                                period of continuing resolution ends, and that                 Year 2010
                                obligations for reimbursable agreements with other          Recommendation
                                entities and other contractual documents are fully               No. 3)
                                recorded in STARS on a timely basis.

                                Recommendation No. 3: Develop procedures to                    In Process
                                ensure that accruals for goods and services provided        (Updated by Fiscal
                                but not paid for are recorded at least quarterly, and          Year 2010
                                that disbursements that are unidentified and recorded       Recommendation
                                in the suspense fund are reclassified and recorded as            No. 1)
                                expenditures at least quarterly.

                                Recommendation No. 4: Develop procedures to                    In Process
                                ensure district office personnel utilize a consistent and   (Updated by Fiscal
                                reasonable methodology for recording prisoner                  Year 2010
                                medical obligations and accruals.                           Recommendation
                                                                                                 No. 6)

                                Recommendation No. 5: Continue to provide training             In Process
                                to headquarters’ and district offices’ finance, budget,     (Updated by Fiscal
                                and program personnel on the quarterly open                    Year 2010
                                obligation review and certification process. This           Recommendation
                                training should include emphasis on assessing the                No. 1)
                                status of each open obligation. In addition, we
                                recommend that the USMS management consider
                                enhancing its certification process with analytical
                                procedures, such as reviews of specific significant
                                obligations (for example GSA rent or aircraft leases),
                                aged undelivered orders in prior budget fiscal years,
                                and obligations with expired periods of performance.




                                                 - 37 -
                  Significant
  Report                                          Recommendation                          Status
                  Deficiency
Annual        Improvements      Recommendation No. 7: Implement policies and             Completed
Financial     Needed to         procedures that require IT resources to be configured
Statement     Strengthen        on a timely basis to mitigate vulnerabilities that may
Fiscal Year   Information       be present to both external and internal facing
2009 Report   System Controls   interfaces. Additionally, we recommend that the
No. 10-09                       USMS incorporate a formal review process, which
                                includes management’s acceptance of risk associated
                                with vulnerabilities identified in the vulnerability
                                scanning program.




                                                - 38 -
                         INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND OTHER MATTERS


Inspector General
United States Department of Justice

Director
United States Marshals Service
United States Department of Justice

We have audited the Consolidated Balance Sheets of the United States Marshals Service (USMS), a component of
the United States Department of Justice (DOJ), as of September 30, 2010, and 2009, and the related Consolidated
Statements of Net Cost, Consolidated Statements of Changes in Net Position, and Combined Statements of
Budgetary Resources for the years then ended, and have issued our report thereon, dated November 3, 2010. We
conducted our audits in accordance with auditing standards generally accepted in the United States of America;
standards applicable to financial audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements
for Federal Financial Statements, as amended by OMB Memorandum M-09-33.

The USMS’s management is responsible for complying with laws, regulations, and contract agreements applicable
to the USMS. As part of obtaining reasonable assurance about whether the USMS’s financial statements are free
of material misstatement, we performed tests of its compliance with certain provisions of laws, regulations, and
contract agreements, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts, and certain provisions of other laws and regulations specified in OMB Bulletin
No. 07-04, including the provisions referred to in Section 803(a) of the Federal Financial Management
Improvement Act of 1996 (FFMIA). However, providing an opinion on compliance with those provisions was not
an objective of our audit, and accordingly, we do not express such an opinion. The results of our tests disclosed
instances of noncompliance or other matters that are required to be reported under Government Auditing
Standards and OMB Bulletin No. 07-04, as described in the following paragraphs.

FEDERAL FINANCIAL MANAGEMENT IMPROVEMENT ACT (FFMIA) (REPEAT)

Under FFMIA, we are required to report whether the USMS’s financial management systems substantially comply
with federal financial management system requirements, applicable federal accounting standards, and application
of the United States Standard General Ledger at the transaction level. To meet this requirement, we performed
tests of compliance with FFMIA section 803(a) requirements.

The results of our tests disclosed instances in which the USMS financial management systems did not substantially
comply with the first and second requirements discussed in the preceding paragraph.

    •	   Federal Financial Management System Requirements: The USMS’s financial management system,
         Standardized Tracking, Accounting, and Reporting System (STARS), does not meet federal financial
         management systems requirements established in OMB Circular No. A-127, Financial Management
         Systems, because STARS lacks integrated subsidiary records to support certain material account balances.




                                                     - 39 -
         Accordingly, the USMS must rely on manually-prepared subsidiary ledgers and ad-hoc business processes
         to generate financial reports.

    •	   Federal Accounting Standards: We identified significant departures from federal accounting standards
         promulgated by the Federal Accounting Standards Advisory Board in the areas of undelivered orders and
         accounts payable, as discussed in our Independent Auditors’ Report on Internal Control over Financial
         Reporting.

The USMS’s Chief Financial Officer is responsible for the financial management systems and the Chief Information
Officer is responsible for information technology. We make no recommendation corresponding with the first
criterion (Federal Financial Management System Requirements) because the USMS has stated that it will be
migrating to a DOJ Unified Financial Management System, and costs to correct the FFMIA deficiencies in the
current accounting system are not justified. Please refer to our Independent Auditors’ Report on Internal Control
over Financial Reporting for recommendations related to the second criterion (Federal Accounting Standards).

Management Response:

USMS Management concurs. Please refer to the management responses in the Independent Auditors’ Report on
Internal Control over Financial Reporting.


This report is intended solely for the information and use of the USMS’s management, DOJ Office of the Inspector
General, OMB, the U.S. Government Accountability Office, and the U.S. Congress; it is not intended to be and
should not be used by anyone other than these specified parties.

COTTON & COMPANY LLP




Catherine L. Nocera, CPA, CISA
Partner

November 3, 2010
Alexandria, Virginia




                                                     - 40 -
U.S. DEPARTMENT OF JUSTICE


UNITED STATES MARSHALS SERVICE



    PRINCIPAL FINANCIAL STATEMENTS

          AND RELATED NOTES


      See Independent Auditors’ Report on Financial Statements




                              - 41 -
This page left intentionally blank.
	




              - 42 -
                                                          U.S. Department of Justice

                                                       United States Marshals Service

                                                         Consolidated Balance Sheets

                                                      As of September 30, 2010 and 2009




Dollars in Thousands                                                              2010             2009

ASSETS (Note 2)
   Intragovernmental
        Fund Balance with U.S. Treasury (Note 3)                             $       684,686   $     497,604
        Accounts Receivable (Note 4)                                                 149,713         188,213
        Other Assets (Note 7)                                                         17,212           3,025
   Total Intragovernmental                                                           851,611         688,842

   Accounts Receivable (Note 4)                                                           47             146
   Inventory and Related Property (Note 5)                                             2,739           2,150
   General Property, Plant and Equipment, Net (Note 6)                               257,937         254,273
   Advances and Prepayments                                                               17              68
   Other Assets (Note 7)                                                                 184             184
Total Assets                                                                 $     1,112,535   $     945,663


LIABILITIES (Note 8)
   Intragovernmental
        Accounts Payable                                                     $        26,177   $      35,165
        Accrued Federal Employees' Compensation Act Liabilities                       15,725          15,222
        Other Liabilities (Note 10)                                                   24,344          20,878
   Total Intragovernmental                                                            66,246          71,265

   Accounts Payable                                                                  406,268         353,922
   Actuarial Federal Employees' Compensation Act Liabilities                          83,490          81,314
   Accrued Payroll and Benefits                                                       30,525          24,728
   Accrued Annual and Compensatory Leave Liabilities                                  42,138          38,931
   Contingent Liabilities (Note 11)                                                   17,000          18,250
   Capital Lease Liabilities (Note 9)                                                    946           1,831
Total Liabilities                                                            $       646,613   $     590,241



NET POSITION
   Unexpended Appropriations                                                 $       328,900   $     222,502
   Cumulative Results of Operations                                                  137,022         132,920
Total Net Position                                                           $       465,922   $     355,422

Total Liabilities and Net Position                                           $     1,112,535   $     945,663




United States Marshals Service
The accompanying notes are an integral part of these financial statements.


                                                            - 43 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                       Consolidated Statements of Net Cost

                                             For the Fiscal Years Ended September 30, 2010 and 2009



Dollars in Thousands

                                           Gross Costs                                         Less: Earned Revenues                       Net Cost of
                          Intra-            With the                              Intra-              With the                             Operations
             FY        governmental          Public              Total         governmental            Public              Total            (Note 12)

Goal 1:     2010       $       5,159     $           -       $        5,159   $          -         $           -       $           -   $          5,159
            2009       $       5,138     $           -       $        5,138   $          -         $           -       $           -   $          5,138

Goal 2:     2010               4,872                 -                4,872              -                     -                   -              4,872
            2009               4,129                 -                4,129              -                     -                   -              4,129

Goal 3:     2010            523,823           2,492,351          3,016,174         1,511,198              2,905            1,514,103          1,502,071
            2009            467,739           2,324,956          2,792,695         1,468,876              2,589            1,471,465          1,321,230

Total       2010       $    533,854      $    2,492,351      $   3,026,205    $    1,511,198       $      2,905        $   1,514,103   $      1,512,102
            2009       $    477,006      $    2,324,956      $   2,801,962    $    1,468,876       $      2,589        $   1,471,465   $      1,330,497



Goal 1    Prevent Terrorism and Promote the Nation's Security
Goal 2    Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People
Goal 3    Ensure the Fair and Efficient Administration of Justice




United States Marshals Service
The accompanying notes are an integral part of these financial statements.


                                                                   - 44 -
                                                       U.S. Department of Justice

                                                     United States Marshals Service

                                          Consolidated Statements of Changes in Net Position

                                        For the Fiscal Years Ended September 30, 2010 and 2009


            Dollars in Thousands                                                       2010              2009

            Unexpended Appropriations
              Beginning Balances                                             $     222,502     $     191,625

                Budgetary Financing Sources
                  Appropriations Received                                         1,190,039           964,000
                  Appropriations Transferred-In/Out                                 393,936           354,616
                  Appropriations Used                                            (1,477,577)       (1,287,739)

                Total Budgetary Financing Sources                                  106,398            30,877

                Unexpended Appropriations                                    $     328,900     $     222,502

            Cumulative Results of Operations
              Beginning Balances                                             $     132,920     $     143,048

                Budgetary Financing Sources
                  Appropriations Used                                            1,477,577         1,287,739

                Other Financing Sources
                  Transfers-In/Out Without Reimbursement                               186               335
                  Imputed Financing from Costs Absorbed
                    by Others (Note 13)                                             38,441            32,295

                Total Financing Sources                                          1,516,204         1,320,369

                Net Cost of Operations                                           (1,512,102)       (1,330,497)
                Net Change                                                           4,102           (10,128)

                Cumulative Results of Operations                             $     137,022     $     132,920

            Net Position                                                     $     465,922     $     355,422




United States Marshals Service
The accompanying notes are an integral part of these financial statements.


                                                            - 45 -
                                                        U.S. Department of Justice

                                                      United States Marshals Service

                                              Combined Statements of Budgetary Resources

                                         For the Fiscal Years Ended September 30, 2010 and 2009


         Dollars in Thousands                                                                   2010             2009

         Budgetary Resources

            Unobligated Balance, Brought Forward, October 1                            $     75,661     $     93,320

            Recoveries of Prior Year Unpaid Obligations                                      66,898           61,319

            Budget Authority
                Appropriations Received                                                    1,190,039         964,000
                Spending Authority from Offsetting Collections
                     Earned
                         Collected                                                         1,592,758        1,482,381
                         Change in Receivables from Federal Sources                          (39,937)          22,610
                     Change in Unfilled Customer Orders
                         Advance Received                                                      4,475            1,078
                         Without Advance from Federal Sources                                (18,314)           9,393
            Subtotal Budget Authority                                                      2,729,021        2,479,462

            Nonexpenditure Transfers, Net, Anticipated and Actual                           393,936          354,616


         Total Budgetary Resources (Note 14)                                           $   3,265,516    $   2,988,717



         Status of Budgetary Resources

            Obligations Incurred
                Direct                                                                 $   1,569,307    $   1,375,617
                Reimbursable                                                               1,562,834        1,537,439
                    Total Obligations Incurred (Note 14)                                   3,132,141        2,913,056
            Unobligated Balance - Available
                Apportioned                                                                  97,391           51,934
                    Total Unobligated Balance - Available                                    97,391           51,934
            Unobligated Balance not Available                                                35,984           23,727

         Total Status of Budgetary Resources                                           $   3,265,516    $   2,988,717

         Change in Obligated Balance

            Obligated Balance, Net - Brought Forward, October 1
                Unpaid Obligations                                                     $     634,587    $     546,861
                Less Uncollected Customer Payments from Federal Sources                      223,465          191,462
                    Total Unpaid Obligated Balance, Net - Brought Forward, October 1         411,122          355,399
            Obligations Incurred, Net                                                      3,132,141        2,913,056
            Less Gross Outlays                                                             2,991,279        2,764,011
            Less Recoveries of Prior Year Unpaid Obligations, Actual                          66,898           61,319
            Change in Uncollected Customer Payments from Federal Sources                      58,251          (32,003)

            Obligated Balance, Net - End of Period
                Unpaid Obligations                                                          708,551          634,587
                Less Uncollected Customer Payments from Federal Sources                     165,214          223,465
                    Total Unpaid Obligated Balance, Net - End of Period                $    543,337     $    411,122

         Net Outlays
            Gross Outlays                                                              $   2,991,279    $   2,764,011
            Less Offsetting Collections                                                    1,597,233        1,483,459
            Less Distributed Offsetting Receipts (Note 14)                                       -               (520)

         Total Net Outlays (Note 14)                                                   $   1,394,046    $   1,281,072


United States Marshals Service
The accompanying notes are an integral part of these financial statements.


                                                              - 46 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


          Note 1. Summary of Significant Accounting Policies


          A. Reporting Entity
          The USMS is an entity of the DOJ and functions to facilitate the following DOJ strategic
          goals as presented in the DOJ Strategic Plan:

               “Prevent Terrorism and Promote the Nation’s Security”
               “Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the
                      American People”
               “Ensure the Fair and Efficient Administration of Justice”

          The financial statements of the USMS have been prepared to reflect the activity of these core
          functions from operations in all 94 Districts and Headquarters.

          The USMS receives funding needed to support its programs through congressional
          appropriations. Both annual and multi-year appropriations are used, within statutory limits,
          for operating and capital expenditures. The USMS appropriations include Salaries and
          Expenses, Construction, and Violent Crime Reduction. The USMS also receives an
          appropriation transfer from the AOUSC for court security. The USMS also has a Revolving
          Fund called the JPATS. The Federal Prisoner Detention program is entirely funded through
          a reimbursable agreement with the Office of the Federal Detention Trustee.

          B. Basis of Presentation
          These financial statements have been prepared from the books and records of the USMS in
          accordance with United States generally accepted accounting principles issued by the Federal
          Accounting Standards Advisory Board (FASAB) and presentation guidelines in the OMB
          Circular A-136, “Financial Reporting Requirements.” These financial statements are
          different from the financial reports prepared pursuant to OMB directives which are used to
          monitor and control the use of USMS budgetary resources. To ensure that the USMS
          financial statements are meaningful at the entity level and to enhance reporting consistency
          within the Department, Other Assets and Other Liabilities as defined by OMB Circular
          A-136 have been disaggregated on the balance sheet. These include Advances and
          Prepayments, Actuarial Federal Employees’ Compensation Act Liabilities, Accrued Federal
          Employees’ Compensation Act Liabilities, Accrued Payroll and Benefits, Accrued Annual
          and Compensatory Leave Liabilities, Contingent Liabilities, and Capital Lease Liabilities.




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 47 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


          Note 1. Summary of Significant Accounting Policies (continued)


          C. Basis of Consolidation
          The consolidated/combined financial statements include the accounts of the USMS. All
          significant proprietary intra-entity transactions and balances have been eliminated in
          consolidation. The Statements of Budgetary Resources is a combined statement for FYs
          2010 and 2009, and as such, intra-entity transactions have not been eliminated.


          D. Basis of Accounting
          Transactions are recorded on the accrual and budgetary bases of accounting. Under the
          accrual basis, revenues are recorded when earned and expenses are recorded when incurred,
          regardless of when cash is exchanged. Under the budgetary basis, however, funds
          availability is recorded based upon legal considerations and constraints. As a result, certain
          line items on the proprietary financial statements may not equal similar line items on the
          budgetary financial statements.


          E. Non-Entity Assets
          Non-entity assets are composed of deposit and suspense funds, which temporarily hold
          receipts for service of process fees.


          F. Fund Balance with U.S. Treasury
          FBWT is the aggregate amount of the entity's accounts with the U.S. Treasury for which the
          entity is authorized to make expenditures and pay liabilities. FBWT also includes Other
          Fund Types (deposit and suspense funds). These are non-entity assets for which the entity is
          not authorized to make expenditures and pay liabilities. The Revolving fund is a separate
          account involving reimbursement for JPATS prisoner movements.

          G. Accounts Receivable
          The USMS expects an immaterial amount of uncollectible Accounts Receivable based upon
          data from previous years. Most of the Accounts Receivable are due from other Federal
          agencies. As a result, an allowance for doubtful accounts was not established. Accounts
          receivable written off are a result of management’s specific identification of amounts
          determined to be uncollectible.




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 48 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


          Note 1. Summary of Significant Accounting Policies (continued)


          H. Inventory and Related Property
          Operating inventory includes equipment and supplies used for the repair of airplanes. The
          USMS utilizes the first-in, first-out (FIFO) method as the basis for valuation of these items.


          I. General Property, Plant, and Equipment
          Acquisitions of $25 and over ($100 for airplanes and leasehold improvements) are
          capitalized and depreciated based on the historical cost using the straight-line method over
          the estimated useful lives of the assets, which range from 5 to 25 years. Other equipment is
          expensed when purchased or included in inventory if used for the repair of airplanes. Normal
          repairs and maintenance are expensed as incurred.

          Total capital lease obligations are determined by calculating the present value of the lease
          payments at the inception of the lease. The interest rate used is the nominal discount rate in
          Appendix C of OMB Circular A-94, “Guidelines and Discount Rates for Benefit-Cost
          Analysis of Federal Programs,” at the inception of the lease.


          J. Advances and Prepayments
          Advances and Prepayments consist of: (a) intragovernmental advances provided to Federal
          Prison Industries, Inc. for the purchase of vehicles and equipment, (b) intragovernmental
          advances provided to the Federal Aviation Administration for JPATS fuel costs, and (c) travel
          advances issued to Federal employees for relocation travel costs.


          K. Liabilities
          Liabilities represent the amount of monies, or other resources, that are likely to be paid by the
          USMS as the result of a transaction or event that has already occurred. However, no liability
          can be paid by the USMS absent proper budget authority. Liabilities for which an
          appropriation has not been enacted are classified as liabilities not covered by budgetary
          resources, and there is no certainty that corresponding future appropriations will be enacted.


          The USMS maintains liabilities with the Department of the U.S. Treasury for deposit and
          suspense funds, which temporarily hold receipts for service of process fees. These are
          included as a part of Other Liabilities on the Balance Sheet.




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 49 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


          Note 1. Summary of Significant Accounting Policies (continued)


          L. Contingencies and Commitments
          The USMS is party to various administrative proceedings, legal actions, and claims. The
          balance sheet includes an estimated liability for those legal actions where management and
          the Chief Counsel consider adverse decisions “probable” and amounts are reasonably
          estimable. Legal actions where management and the Chief Counsel consider adverse
          decisions “probable” or “reasonably possible” and the amounts are reasonably estimable are
          disclosed in Note 11, Contingencies and Commitments. However, there are cases where
          amounts have not been accrued or disclosed because the amounts of the potential loss cannot
          be estimated or the likelihood of an unfavorable outcome is considered “remote”.

          M. Annual, Sick, and Other Leave
          Accrued Annual and Compensatory Leave Liabilities are expected to be paid from future
          years' appropriations. Federal employees' annual leave is accrued as it is earned, and the
          accrual is reduced annually for actual leave taken and increased for leave earned. Each year,
          the accrued annual leave balance is adjusted to reflect the latest pay rates. Sick leave is
          expensed as taken.

          N. Interest on Late Payments
          The USMS on occasion incurs interest penalties on late payments. All such interest penalties
          are paid to the respective vendor in accordance with the guidelines mandated by the Prompt
          Payment Act, (P.L. 97-177), as amended.

          O. Retirement Plans
          With few exceptions, employees hired before January 1, 1984 are covered by the Civil
          Service Retirement System (CSRS) and employees hired on or after that date are covered by
          the Federal Employees Retirement System (FERS).

          For employees covered by the CSRS, the USMS contributes 7% of the employee's gross pay
          for normal retirement or 7.5% for hazardous duty retirement. For employees covered by the
          FERS, the USMS contributes 11.2% of the employee's gross pay for regular employees, and
          24.9% of the employee's gross pay for law enforcement officers. All employees are eligible
          to contribute to the Federal Thrift Savings Plan (TSP). For those employees covered by the
          FERS, a TSP account is automatically established, and the USMS is required to contribute an
          additional 1% of gross pay to this account and match employee contributions up to 4% of
          gross pay. No matching contributions are made to the TSP accounts established by the CSRS
          employees. The USMS does not report CSRS or FERS assets, accumulated plan benefits, or
          unfunded liabilities, if any, which may be applicable to its employees. Such reporting is the
          responsibility of the Office of Personnel Management (OPM).
United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 50 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


          Note 1. Summary of Significant Accounting Policies (continued)


          P. Federal Employee Compensation Benefits
          Federal Employees’ Compensation Act (FECA) provides income and medical cost protection
          to cover Federal civilian employees injured on the job, employees who have incurred a
          work-related occupational disease, and beneficiaries of employees whose death is attributable
          to a job-related injury or occupational disease. The total FECA liability consists of an
          actuarial and an accrued portion as discussed below.

          Actuarial Liability: The U.S. Department of Labor (DOL) calculates the liability of the
          Federal Government for future compensation benefits, which includes the expected liability
          for death, disability, medical, and other approved costs. The liability is determined using the
          paid-losses extrapolation method calculated over the next 37-year period. This method
          utilizes historical benefit payment patterns related to a specific incurred period to predict the
          ultimate payments related to that period. The projected annual benefit payments are
          discounted to present value. The resulting Federal Government liability is then distributed by
          agency. The Department’s portion of this includes the estimated future cost of death
          benefits, workers’ compensation, medical, and miscellaneous cost for approved
          compensation cases for its employees. The Department’s liability is further allocated to the
          component reporting entities on the basis of actual payments made to the FECA Special
          Benefits Fund (SBF) for the three prior years as compared to the total Department’s
          payments made over the same period.

          The FECA actuarial liability is recorded for reporting purposes only. This liability
          constitutes an extended future estimate of cost which will not be obligated against budgetary
          resources until the fiscal year in which the related funds are billed to the USMS. The cost
          associated with this liability may not be met by the USMS without further appropriation
          action.

          Accrued Liability: The accrued FECA liability owed to the DOL is the difference between
          the FECA benefits paid by the FECA SBF and the agency’s actual cash payments to the
          FECA SBF. For example, the FECA SBF will pay benefits on behalf of an agency through
          the current year. However, most agencies’ actual cash payments to the FECA SBF for the
          current fiscal year will reimburse the FECA SBF for benefits paid through a prior fiscal year.
          The difference between these two amounts is the accrued FECA liability.




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 51 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


          Note 1. Summary of Significant Accounting Policies (continued)


          Q. Intragovernmental Activity
          Intragovernmental costs and exchange revenue represent transactions made between two
          reporting entities within the Federal Government. Costs and earned revenues with the public
          represent exchange transactions made between the reporting entity and a non-Federal entity.
          The classification of revenue or cost as “intragovernmental” or “with the public” is defined
          on a transaction-by-transaction basis. The purpose of this classification is to enable the
          Federal Government to prepare consolidated financial statements, not to match public and
          intragovernmental revenue with the costs incurred to produce public and intragovernmental
          revenue.

          R. Revenues and Other Financing Sources
          The USMS receives funding needed to support its programs through appropriations.
          Appropriations are recognized as a financing source when the funding is appropriated. The
          USMS also reports revenue earned for services performed on a reimbursable basis with other
          Federal agencies and components of the DOJ. The revenue for these services is earned when
          the work is performed. Moreover, the USMS reports appropriations transferred from other
          Federal entities as a financing source.

          S. 	Earmarked Funds
          Statement of Federal Financial Accounting Standards (SFFAS) No. 27, “Identifying and
          Reporting Earmarked Funds” defines ‘earmarked funds’ as being financed by specifically
          identified revenues, often supplemented by other financing sources, which remain available
          over time. These specifically identified revenues and other financing sources are required by
          statute to be used for designated activities, benefits, or purposes, and must be accounted for
          separately from the Federal Government’s general revenues. The three required criteria for
          an earmarked fund are:
                    1.	 A statute committing the Federal Government to use specifically identified
                        revenues and other financing sources only for designated activities, benefits, or
                        purposes;
                    2.	 Explicit authority for the earmarked fund to retain revenues and other financing
                        sources not used in the current period for future use to finance the designated
                        activities, benefits, or purposes; and
                    3.	 A requirement to account for and report on the receipt, use, and retention of the
                        revenues and other financing sources that distinguishes the earmarked fund from
                        the Federal Government’s general revenues.
          At the USMS, there are no funds that meet the definition of an earmarked fund.


United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 52 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


          Note 1. Summary of Significant Accounting Policies (continued)


          T. Allocation Transfer of Appropriations
          The USMS is a party to allocation transfers with another Federal agency as a transferring
          (parent) entity and/or a receiving (child) entity. Allocation transfers are legal delegations by
          one department of its authority to obligate budget authority and outlay funds to another
          department. Generally, all financial activity related to allocation transfers is reported in the
          financial statements of the parent entity, from which the underlying authority, appropriations,
          and budget apportionments are derived.

          The USMS receives, as a child entity, allocation transfers of appropriations from the
          AOUSC. However, per OMB guidance the USMS reports all budgetary and proprietary
          activity for court security funds transferred from the Judiciary to the USMS. Exceptions to
          this general rule affecting the USMS include the Funds transferred from The Judicial Branch
          to the Department of Justice U.S. Marshals Services, for whom the USMS is the child in the
          allocation transfer but, per OMB guidance, will report all activity relative to these allocation
          transfers in the Reporting Entity’s financial statements.

          U. Tax Exempt Status
          As an agency of the Federal Government, the USMS is exempt from all income taxes
          imposed by any governing body whether it is a Federal, state, commonwealth, local, or
          foreign government.

          V. Use of Estimates
          The preparation of financial statements requires management to make certain estimates and
          assumptions that affect the reported amount of assets and liabilities and the reported amounts
          of revenue and expenses during the reporting period. Actual results could differ from those
          estimates.


          W. Subsequent Events
          Subsequent events and transactions occurring after September 30, 2010 through the date of
          the auditors’ opinion have been evaluated for potential recognition or disclosure in the
          financial statements. The date of the auditors’ opinion also represents the date that the
          financial statements were available to be issued.




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 53 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 2. Non-Entity Assets


              As of September 30, 2010 and 2009
                                                                                     2010            2009
              Intragovernmental
                Fund Balance with U.S. Treasury                              $     7,974         $     10,818
                   Total Non-Entity Assets                                         7,974               10,818
                   Total Entity Assets                                         1,104,561              934,845
                   Total Assets                                              $ 1,112,535         $    945,663



Note 3. Fund Balance with U.S. Treasury


                As of September 30, 2010 and 2009
                                                                                      2010           2009
                Fund Balances
                  Revolving Funds                                                $  30,803       $  30,583
                  General Funds                                                    645,909         456,203
                  Other Fund Types                                                   7,974          10,818
                    Total Fund Balances with U.S. Treasury                       $ 684,686       $ 497,604

                Status of Fund Balances
                  Unobligated Balance - Available                                $  97,391       $  51,934
                  Unobligated Balance - Unavailable                                 35,984          23,727
                  Obligated Balance not yet Disbursed                              543,337         411,122
                  Other Funds (With)/Without Budgetary Resources                     7,974          10,821
                     Total Status of Fund Balances                               $ 684,686       $ 497,604



Other Funds (With)/Without Budgetary Resources and Other Fund Types include non-entity assets.
Non-entity assets are composed of deposit funds, which temporarily hold receipts for service of
process fees.




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 54 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 4. Accounts Receivable


               As of September 30, 2010 and 2009
                                                                                  2010               2009
               Intragovernmental
                 Accounts Receivable                                          $ 149,713          $ 188,213

               With the Public
                Accounts Receivable                                                  47                146
                   Total Accounts Receivable                                  $ 149,760          $ 188,359


Intragovernmental accounts receivable primarily consists of reimbursable revenue with OFDT.



Note 5. Inventory and Related Property


              As of September 30, 2010 and 2009
                                                                                 2010                2009
              Operating Materials and Supplies
               Held for Current Use                                          $      2,739        $     2,150




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 55 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted



Note 6. General Property, Plant and Equipment, Net



     As of September 30, 2010
                                                           Acquisition    Accumulated      Net Book
                                                              Cost        Depreciation       Value     Useful Life
     Construction in Progress                              $   38,419     $        -       $ 38,419       N/A
     Buildings, Improvements, and Renovations                   3,422          (3,422)           -      12 years
     Aircraft                                                  27,327         (11,540)        15,787   7-25 years
     Vehicles                                                  27,647         (19,244)         8,403   5-10 years
     Equipment                                                 43,460         (22,924)        20,536   5-15 years
     Assets Under Capital Lease                                10,727         (10,190)           537    20 years
     Leasehold Improvements                                   385,191        (210,936)       174,255    12 years
     Total                                                 $ 536,193      $ (278,256)      $ 257,937




     As of September 30, 2009
                                                           Acquisition    Accumulated      Net Book
                                                              Cost        Depreciation       Value     Useful Life
     Construction in Progress                              $   30,836     $        -       $ 30,836       N/A
     Buildings, Improvements, and Renovations                   3,422          (3,137)           285    12 years
     Aircraft                                                  27,327          (9,795)        17,532   7-25 years
     Vehicles                                                  24,521         (17,185)         7,336   5-10 years
     Equipment                                                 40,414         (20,905)        19,509   5-15 years
     Assets Under Capital Lease                                10,727          (9,654)         1,073    20 years
     Leasehold Improvements                                   361,001        (183,299)       177,702    12 years
     Total                                                 $ 498,248      $ (243,975)      $ 254,273




The USMS purchased capitalized property from Federal sources and from the Public in the amounts
of $24,187 and $17,798, respectively, for the fiscal year ended September 30, 2010 and $19,234 and
$18,436, respectively, for the fiscal year ended September 30, 2009.

The USMS has no restrictions on the use or convertibility of general PP&E.




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 56 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 7. Other Assets


              As of September 30, 2010 and 2009
                                                                                 2010                 2009
              Intragovernmental
                Advances and Prepayments                                     $     17,212         $       3,025

              Other Assets With the Public                                            184                   184
                Total Other Assets                                           $     17,396         $       3,209



Other Assets With the Public is composed of a collection of historical items such as jewelry, badges,
and a carpet. The collection was appraised in November 2002 to provide the USMS with a basis for
these items.


Note 8. Liabilities not Covered by Budgetary Resources


         As of September 30, 2010 and 2009
                                                                                      2010                 2009
         Intragovernmental
           Accrued FECA Liabilities                                               $      15,725       $      15,222
           Other Unfunded Employment Related Liabilities                                     91                  74
              Total Intragovernmental                                                    15,816              15,296

         With the Public
          Actuarial FECA Liabilities                                                     83,490          81,314
          Accrued Annual and Compensatory Leave Liabilities                              42,138          38,931
          Contingent Liabilities (Note 11)                                               17,000          18,250
             Total With the Public                                                      142,628         138,495
             Total Liabilities not Covered by Budgetary Resources                       158,444         153,791
             Total Liabilities Covered by Budgetary Resources                           488,169         436,450
             Total Liabilities                                                    $     646,613       $ 590,241


Liabilities not covered by budgetary resources result from the receipt of goods and services, or the
occurrence of eligible events, for which appropriations, revenues, or other financing sources
necessary to pay the liabilities have not yet been made available through congressional
appropriation.

United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 57 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 9. Leases


          As of September 30, 2010 and 2009

          Capital Leases                                                        2010                       2009

          Summary of Assets Under Capital Lease
            Land and Buildings                                             $       10,727        $           10,727
            Accumulated Amortization                                              (10,190)                   (9,654)
              Total Assets Under Capital Lease (Note 6)                    $          537        $            1,073



The USMS has one capital lease that covers an aircraft hangar in Oklahoma City, Oklahoma which
expires in FY 2011. The remaining lease obligation for the aircraft hangar is $946 and $1,831 as of
September 30, 2010 and 2009 respectively.



          Future Capital Lease Payments Due
                                                                                                                    Land and
          Fiscal Year                                                                                               Buildings
            2011                                                                                                          1,013
              Total Future Capital Lease Payments                                                                 $       1,013
          Less: Imputed Interest                                                                                             67
            FY 2010 Net Capital Lease Liabilities                                                                 $         946
             FY 2009 Net Capital Lease Liabilities                                                                $      1,831

                                                                                              2010                    2009
          Net Capital Lease Liabilities Covered by Budgetary Resources                  $            946          $      1,831



          Operating Lease Expenses

          Lease Type                                                                         2010                     2009
            Cancelable Operating Leases                                                 $     226,685             $    226,622



The USMS has significant operating leases with GSA for the rental of office space and with
commercial vendors for the use of aircraft.



United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 58 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 10. Other Liabilities


     As of September 30, 2010 and 2009
                                                                                             2010               2009
     Intragovernmental
       Employer Contributions and Payroll Taxes Payable                                  $       9,902      $    8,162
       Other Post-Employment Benefits Due and Payable                                              149              70
       Other Unfunded Employment Related Liabilities                                                91              74
       Advances from Others                                                                      6,228           1,753
       Liability for Deposit Funds, Clearing Accounts and Undeposited
          Collections                                                                          7,974            10,819
          Total Intragovernmental                                                             24,344            20,878
          Total Other Liabilities                                                        $    24,344        $   20,878


Non-current liabilities consist of future employee related expenses.


Note 11. Contingencies and Commitments


                                                                   Accrued          Estimated Range of Loss
                                                                  Liabilities       Lower            Upper
     As of September 30, 2010
             Probable                                             $ 17,000         $ 17,000              $ 17,000
             Reasonably Possible                                                      5,000                10,000

     As of September 30, 2009
             Probable                                             $ 18,250         $ 18,250              $ 18,250
             Reasonably Possible                                                      5,000                10,000




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 59 -
                                                                         U.S. Department of Justice

                                                                       United States Marshals Service

                                                                      Notes to the Financial Statements

                                                                  Dollars in Thousands, Except as Noted


Note 12. Net Cost of Operations by Suborganization


    For the Fiscal Year Ended September 30, 2010
                                                                                       Suborganizations
                                                            Justice Prisoner
                                                               and Alien                             Federal          All
                                                             Transportation           Court         Prisoner         Other
                                                                System               Security       Detention        Funds       Eliminations   Consolidated

    Goal 1: Prevent Terrorism and Promote the Nation's Security

      Gross Cost                                             $            -      $         -    $          -     $      5,159    $       -      $      5,159
      Net Cost (Revenue) of Operations                                    -                -               -            5,159            -             5,159

    Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People

      Gross Cost                                                          -                -               -            4,872            -             4,872
      Net Cost (Revenue) of Operations                                    -                -               -            4,872            -             4,872

    Goal 3: Ensure the Fair and Efficient Administration of Justice

      Gross Cost                                                      115,839         384,981        1,365,000       1,184,942       (34,588)       3,016,174
      Less: Earned Revenue                                            116,490             -          1,365,000          67,201       (34,588)       1,514,103
      Net Cost (Revenue) of Operations                                   (651)        384,981              -         1,117,741           -          1,502,071

    Net Cost (Revenue) of Operations                         $           (651) $      384,981   $          -     $ 1,127,772     $       -      $   1,512,102


    For the Fiscal Year Ended September 30, 2009
                                                                                       Suborganizations
                                                            Justice Prisoner
                                                               and Alien                             Federal          All
                                                             Transportation           Court         Prisoner         Other
                                                                System               Security       Detention        Funds       Eliminations   Consolidated

    Goal 1: Prevent Terrorism and Promote the Nation's Security

      Gross Cost                                             $            -      $         -    $          -     $      5,138    $       -      $      5,138
      Net Cost (Revenue) of Operations                                    -                -               -            5,138            -             5,138

    Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People

      Gross Cost                                                          -                -               -            4,129            -             4,129
      Net Cost (Revenue) of Operations                                    -                -               -            4,129            -             4,129

    Goal 3: Ensure the Fair and Efficient Administration of Justice

      Gross Cost                                                      122,127         355,070        1,302,048       1,043,851       (30,401)       2,792,695
      Less: Earned Revenue                                            118,431             -          1,302,048          81,387       (30,401)       1,471,465
      Net Cost (Revenue) of Operations                                  3,696         355,070              -           962,464           -          1,321,230

    Net Cost (Revenue) of Operations                         $          3,696    $    355,070   $          -     $    971,731    $       -      $   1,330,497




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                              - 60 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted



Note 13. Imputed Financing from Costs Absorbed by Others

Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e. non-reimbursed and
under-reimbursed) portion of the full costs of goods and services received by the USMS from a
providing entity that is not part of the U.S. Department of Justice. In accordance with SFFAS No.
30, “Inter-Entity Cost Implementation Amending SFFAS 4, Managerial Cost Accounting Standards
and Concepts”, the material Imputed Inter-Departmental financing sources recognized by the USMS
are the actual cost of future benefits for the Federal Employees Health Benefits Program (FEHB),
the Federal Employees’ Group Life Insurance Program (FEGLI), the Federal Pension plans that are
paid by other Federal entities, and any un-reimbursed payments made from the Treasury Judgment
Fund on behalf of the USMS. The Treasury Judgment Fund was established by the Congress and
funded at 31 U.S.C. 1304 to pay in whole or in part the court judgments and settlement agreements
negotiated by the Department on behalf of agencies, as well as certain types of administrative
awards. Interpretation of Federal Financial Accounting Standards Interpretation No. 2, “Accounting
for Treasury Judgment Fund Transactions,” requires agencies to recognize liabilities and expenses
when unfavorable litigation outcomes are probable and the amount can be estimated and will be paid
by the Treasury Judgment Fund.

SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” requires that employing
agencies recognize the cost of pensions and other retirement benefits during their employees’ active
years of service. SFFAS No. 5 requires OPM to provide cost factors necessary to calculate cost.
OPM actuaries calculate the value of pension benefits expected to be paid in the future, and then
determine the total funds to be contributed by and for covered employees, such that the amount
calculated would be sufficient to fund the projected pension benefits. For employees covered by
Civil Service Retirement System (CSRS), the cost factors are 30.1% of basic pay for regular, 51.1%
law enforcement officers, 23.5% regular offset, and 45.6% law enforcement officers offset. For
employees covered by Federal Employees Retirement System (FERS), the cost factors are 13.8% of
basic pay for regular and 29.8% for law enforcement officers.

The cost to be paid by other agencies is the total calculated future costs, less employee and employer
contributions. In addition, other retirement benefits, which include health and life insurance that are
paid by other Federal entities, are disclosed below.

Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4, “Managerial Cost
Accounting Concepts and Standards for the Federal Government,” are the unreimbursed portion of
the full costs of goods and services received by the USMS from a providing entity that is part of
DOJ. Recognition is required for those transactions determined to be material to the receiving
entity. The determination of whether the cost is material requires considerable judgment based on
the specific facts and circumstances of each type of good or service provided. SFFAS No. 4 also
states that costs for broad and general support need not be recognized by the receiving entity, unless
such services form a vital and integral part of the operations or output of the receiving entity. Costs
are considered broad and general if they are provided to many, if not all, reporting components and

United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 61 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 13. Imputed Financing from Costs Absorbed by Others (continued)

not specifically related to the receiving entity’s output. The USMS does not have any imputed intra­
departmental costs to be recognized.


           For the Fiscal Years Ended September 30, 2010 and 2009
                                                                                      2010                 2009
           Imputed Inter-Departmental Financing
             Treasury Judgment Fund                                               $        1,563       $          966
             Health Insurance                                                             25,166               24,263
             Life Insurance                                                                   95                   86
             Pension                                                                      11,617                6,980
               Total Imputed Inter-Departmental                                   $       38,441       $       32,295




Note 14. Information Related to the Statement of Budgetary Resources

Apportionment Categories of Obligations Incurred:


                                                                                                                  Total
                                                                      Direct          Reimbursable             Obligations
                                                                    Obligations        Obligations              Incurred

     For the Fiscal Year Ended September 30, 2010
       Obligations Apportioned Under
          Category A                                            $     1,569,307       $    1,562,834       $     3,132,141

     For the Fiscal Year Ended September 30, 2009
       Obligations Apportioned Under
          Category A                                            $     1,375,617       $    1,537,439       $     2,913,056



The apportionment categories are determined in accordance with the guidance provided in Part 4
“Instructions on Budget Execution” of OMB Circular A-11, “Preparation, Submission and Execution
of the Budget.” Category A represents resources apportioned for calendar quarters. Category B
represents resources apportioned for other time periods; for activities, projects, and objectives or for
combination thereof. The USMS does not have any Category B obligations.

United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 62 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 14. Information Related to the Statement of Budgetary Resources (continued)

Status of Undelivered Orders:

Undelivered Orders (UDO) represent the amount of goods and/or services ordered, which have not
been actually or constructively received. This amount includes any orders which may have been
prepaid or advanced but for which delivery or performance has not yet occurred.


              As of September 30, 2010 and 2009
                                                                              2010                   2009
              UDO Obligations Unpaid                                     $      232,071          $    206,683
              UDO Obligations Prepaid/Advanced                                   17,229                 3,091
               Total UDO                                                 $      249,300          $    209,774




Legal Arrangements Affecting Use of Unobligated Balances:

Unobligated balances represent the cumulative amount of budget authority that is not obligated and
that remains available for obligation based on annual legislative requirements and other enabling
authorities, unless otherwise restricted. The use of unobligated balances is restricted based on
annual legislation requirements and other enabling authorities. Funds are appropriated on an annual,
multi-year, and no-year basis. Appropriated funds shall expire on the last day of availability and are
no longer available for new obligations. Unobligated balances in unexpired fund symbols are
available in the next fiscal year for new obligations unless some restrictions had been placed on
those funds by law. Amounts in expired fund symbols are not available for new obligations, but
may be used to adjust previously established obligations.


Statement of Budgetary Resources vs. the Budget of the United States Government:

The reconciliation as of September 30, 2010 is not presented, because the submission of the Budget
of the United States Government for FY 2012, which presents the execution of the FY 2010 budget,
occurs after publication of these financial statements. The Department of Justice Budget Appendix
can be found on the OMB website (http://www.whitehouse.gov/omb/budget) and will be available in
early February 2011.




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 63 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted



Note 14. Information Related to the Statement of Budgetary Resources (continued)



    For the Fiscal Year Ended September 30, 2009:
      (Dollars in Millions)                                                                        Distributed
                                                             Budgetary         Obligations         Offsetting         Net
                                                             Resources          Incurred            Receipts         Outlays

    Statement of Budgetary Resources (SBR)               $        2,989    $         2,913     $             (1)     $ 1,281

    Funds not Reported in the Budget
      Expired Funds                                                 (33)               (14)                      -          -
      USMS Court Security Funds                                    (378)              (371)                      -       (347)
      Suspense Account Activity                                       -                  -                       1         (1)

       Rounding                                                      (2)                 (1)                     -          -

    Budget of the United States Government               $        2,576    $         2,527     $                 -   $   933




The Court Security funds are transfer appropriations from the Judiciary Branch (See Note 1.T).
These transfers are accomplished through Nonexpenditure Transfer Authorizations.




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                 - 64 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 15. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
Statement of Financing)
 For the Fiscal Years Ended September 30, 2010 and 2009
                                                                                          2010               2009
 Resources Used to Finance Activities

     Budgetary Resources Obligated
       Obligations Incurred                                                          $    3,132,141      $   2,913,056
       Less: Spending Authority from Offsetting Collections
              and Recoveries                                                              1,605,880          1,576,781
       Obligations Net of Offsetting Collections and Recoveries                           1,526,261          1,336,275
       Less: Offsetting Receipts                                                                -                 (520)
       Net Obligations                                                                    1,526,261          1,336,795

    Other Resources
       Transfers In/Out Without Reimbursement                                                   186                335
       Imputed Financing from Costs Absorbed by Others (Note 13)                             38,441             32,295
       Net Other Resources Used to Finance Activities                                        38,627             32,630
 Total Resources Used to Finance Activities                                               1,564,888          1,369,425

 Resources Used to Finance Items not Part of the Net Cost of
    Operations
       Net Change in Budgetary Resources Obligated for Goods, Services,
          and Benefits Ordered but not Yet Provided                                         (53,365)           (48,689)
       Resources That Fund Expenses Recognized in Prior Periods (Note 16)                    (1,250)               (27)
       Budgetary Offsetting Collections and Receipts That do not
          Affect Net Cost of Operations                                                         -                 (520)
       Resources That Finance the Acquisition of Assets                                     (42,574)           (37,946)
 Total Resources Used to Finance Items not Part of the Net Cost
    of Operations                                                                           (97,189)           (87,182)

 Total Resources Used to Finance Net Cost of Operations                              $    1,467,699      $   1,282,243

 Components of Net Cost of Operations That Will not Require
   or Generate Resources in the Current Period

     Components That Will Require or Generate Resources
       in Future Periods (Note 16)                                                   $           6,002   $      10,914

     Depreciation and Amortization                                                            37,266            35,722
     Revaluation of Assets or Liabilities                                                      1,048               536
     Other                                                                                        87             1,082
 Total Components of Net Cost of Operations That Will not
    Require or Generate Resources in the Current Period                                       44,403            48,254

 Net Cost of Operations                                                              $    1,512,102      $   1,330,497




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 65 -
                                                            U.S. Department of Justice

                                                          United States Marshals Service

                                                         Notes to the Financial Statements

                                                        Dollars in Thousands, Except as Noted


Note 16. Explanation of Differences Between Liabilities not Covered by Budgetary Resources
and Components of Net Cost of Operations Requiring or Generating Resources in Future
Periods

Liabilities that are not covered by realized budgetary resources and for which there is not certainty
that budgetary authority will be realized, such as the enactment of an appropriation, are considered
liabilities not covered by budgetary resources. These liabilities totaling $158,444 and $153,791 on
September 30, 2010 and 2009, respectively, are discussed in Note 8, Liabilities not Covered by
Budgetary Resources. Decreases in these liabilities result from current year budgetary resources that
were used to fund expenses recognized in prior periods. Increases in these liabilities represent
unfunded expenses that were recognized in the current period. These increases along with the
change in the portion of exchange revenue receivables from the public, which are not considered
budgetary resources until collected, represent components of current period net cost of operations
that will require or generate budgetary resources in future periods. The changes in liabilities not
covered by budgetary resources and receivables generating resources in future periods are composed
of the following:



     For the Fiscal Years Ended September 30, 2010 and 2009
                                                                                             2010           2009
     Resources that Fund Expenses Recognized in Prior Periods
         Decrease in Other Unfunded Employment Related Liabilities                       $       -      $          (27)
         Decrease in Contingent Liabilities                                                   (1,250)              -
           Total Other                                                                        (1,250)              (27)
           Total Resources that Fund Expenses Recognized in Prior Periods                $    (1,250)   $          (27)

     Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods
      Increase in Accrued Annual and Compensatory Leave Liabilities              $     3,207       $          2,597
      (Increase)/Decrease in Exchange Revenue Receivable from the Public                  99                    211
      Other
         Increase in Actuarial FECA Liabilities                                        2,176                  6,641
         Increase in Accrued FECA Liabilities                                            503                    215
         Increase in Contingent Liabilities                                              -                    1,250
         Increase in Other Unfunded Employment Related Liabilities                        17                    -
           Total Components of Net Cost of Operations That Will Require
             or Generate Resources in Future Periods                             $     6,002       $         10,914




United States Marshals Service
These notes are an integral part of the financial statements.


                                                                - 66 -
U.S. DEPARTMENT OF JUSTICE


UNITED STATES MARSHALS SERVICE



       REQUIRED SUPPLEMENTARY

            INFORMATION


            (UNAUDITED)





                - 67 -
This page left intentionally blank.
	




              - 68 -
                                                                                            U.S. Department of Justice

                                                                                           United States Marshals Service

                                                                                   Required Supplementary Information

                                                                               Combining Statement of Budgetary Resources

                                                                                  Broken Down by Major Appropriation

                                                                               For the Fiscal Year Ended September 30, 2010



Dollars in Thousands                                                                                                                                                                         2010

                                                                                                                                                 Justice Prisoner
                                                                                                                                      Federal       and Alien         Violent
                                                                                   Salaries &            Court                       Prisoner    Transportation       Crime
                                                                                    Expense             Security     Construction    Detention       System          Reduction       Total

Budgetary Resources

    Unobligated Balance, Brought Forward, October 1                            $        43,468      $        7,037   $       1,115   $     -     $         24,041    $     -     $      75,661

    Recoveries of Prior Year Unpaid Obligations                                         50,755              11,625           1,738         -                2,780          -            66,898

    Budget Authority
        Appropriations Received                                                       1,155,414                -            34,625         -                  -            -          1,190,039
        Spending Authority from Offsetting Collections
            Earned
               Collected                                                              1,475,438                -               -           -              117,320          -          1,592,758
               Change in Receivables from Federal Sources                               (39,124)               -               -           -                 (813)         -            (39,937)
            Change in Unfilled Customer Orders
               Advance Received                                                           4,475                -               -           -                  -            -              4,475
               Without Advance from Federal Sources                                     (18,314)               -               -           -                  -            -            (18,314)
    Subtotal Budget Authority                                                         2,577,889                -            34,625         -              116,507          -          2,729,021

    Nonexpenditure Transfers, Net, Anticipated and Actual                                (5,201)           399,137             -           -                  -            -           393,936


Total Budgetary Resources                                                      $      2,666,911     $      417,799   $      37,478   $     -     $        143,328    $     -     $    3,265,516


Status of Budgetary Resources

    Obligations Incurred
        Direct                                                                 $      1,144,137     $      398,323   $      26,847   $     -     $            -      $     -     $    1,569,307
        Reimbursable                                                                  1,445,480                -               -           -              117,354          -          1,562,834
            Total Obligations Incurred                                                2,589,617            398,323          26,847         -              117,354          -          3,132,141
    Unobligated Balance - Available
        Apportioned                                                                     49,942              11,940           9,582         -               25,927          -            97,391
            Total Unobligated Balance - Available                                       49,942              11,940           9,582         -               25,927          -            97,391
    Unobligated Balance not Available                                                   27,352               7,536           1,049         -                   47          -            35,984

Total Status of Budgetary Resources                                            $      2,666,911     $      417,799   $      37,478   $     -     $        143,328    $     -     $    3,265,516

Change in Obligated Balance

    Obligated Balance, Net - Brought Forward, October 1
        Unpaid Obligations                                                     $        466,546     $      125,632   $      25,920   $     -     $         16,489    $     -     $      634,587
        Less Uncollected Customer Payments from Federal Sources                         213,518                -               -           -                9,947          -            223,465
            Total Unpaid Obligated Balance, Net - Brought Forward, October 1            253,028            125,632          25,920         -                6,542          -            411,122
    Obligations Incurred, Net                                                         2,589,617            398,323          26,847         -              117,354          -          3,132,141
    Less Gross Outlays                                                                2,477,965            379,839          16,376         -              117,099          -          2,991,279
    Less Recoveries of Prior Year Unpaid Obligations, Actual                             50,755             11,625           1,738         -                2,780          -             66,898
    Change in Uncollected Customer Payments from Federal Sources                         57,438                -               -           -                  813          -             58,251

    Obligated Balance, Net - End of Period
        Unpaid Obligations                                                             527,443             132,491          34,653         -               13,964          -           708,551
        Less Uncollected Customer Payments from Federal Sources                        156,080                 -               -           -                9,134          -           165,214
            Total Unpaid Obligated Balance, Net - End of Period                $       371,363      $      132,491   $      34,653   $     -     $          4,830    $     -     $     543,337

Net Outlays
    Gross Outlays                                                              $      2,477,965     $      379,839   $      16,376   $     -     $        117,099    $     -     $    2,991,279
    Less Offsetting Collections                                                       1,479,913                -               -           -              117,320          -          1,597,233
    Less Distributed Offsetting Receipts                                                    -                  -               -           -                  -            -                -

Total Net Outlays                                                              $       998,052      $      379,839   $      16,376   $     -     $           (221)   $     -     $    1,394,046




United States Marshals Service
                                                                                                   - 69 -
                                                                                         U.S. Department of Justice

                                                                                        United States Marshals Service

                                                                                   Required Supplementary Information

                                                                               Combining Statement of Budgetary Resources

                                                                                  Broken Down by Major Appropriation

                                                                               For the Fiscal Year Ended September 30, 2009


Dollars in Thousands                                                                                                                                                                              2009

                                                                                                                                                      Justice Prisoner
                                                                                                                                       Federal           and Alien         Violent
                                                                                                                                      Prisoner        Transportation       Crime
                                                                               Salaries & Expense     Court Security   Construction   Detention           System          Reduction       Total

Budgetary Resources

    Unobligated Balance, Brought Forward, October 1                            $           57,267     $       7,451    $      2,456   $   1,055       $         25,091    $     -     $      93,320

    Recoveries of Prior Year Unpaid Obligations                                            43,059            13,044           2,183              55              2,978          -            61,319

    Budget Authority
        Appropriations Received                                                           960,000               -             4,000          -                     -            -           964,000
        Spending Authority from Offsetting Collections
            Earned
               Collected                                                                 1,357,249              -               -            -                 125,132          -          1,482,381
               Change in Receivables from Federal Sources                                   28,457              -               -            -                  (5,847)         -             22,610
            Change in Unfilled Customer Orders
               Advance Received                                                              1,078              -               -            -                     -            -              1,078
               Without Advance from Federal Sources                                          9,393              -               -            -                     -            -              9,393
    Subtotal Budget Authority                                                            2,356,177              -             4,000          -                 119,285          -          2,479,462

    Nonexpenditure Transfers, Net, Anticipated and Actual                                   (1,703)         357,429             -         (1,110)                  -            -           354,616


Total Budgetary Resources                                                      $         2,454,800    $     377,924    $      8,639   $      -        $        147,354    $     -     $    2,988,717


Status of Budgetary Resources

    Obligations Incurred
        Direct                                                                 $           997,206    $     370,887    $      7,524   $      -        $            -      $     -     $    1,375,617
        Reimbursable                                                                     1,414,126              -               -            -                 123,313          -          1,537,439
            Total Obligations Incurred                                                   2,411,332          370,887           7,524          -                 123,313          -          2,913,056
    Unobligated Balance - Available
        Apportioned                                                                        24,140             4,087             190          -                  23,517          -            51,934
            Total Unobligated Balance - Available                                          24,140             4,087             190          -                  23,517          -            51,934
    Unobligated Balance not Available                                                      19,328             2,950             925          -                     524          -            23,727

Total Status of Budgetary Resources                                            $         2,454,800    $     377,924    $      8,639   $      -        $        147,354    $     -     $    2,988,717

Change in Obligated Balance

    Obligated Balance, Net - Brought Forward, October 1
        Unpaid Obligations                                                     $           377,763    $     115,243    $     31,298   $       86      $         22,324    $     147   $      546,861
        Less Uncollected Customer Payments from Federal Sources                            175,668              -               -            -                  15,794          -            191,462
            Total Unpaid Obligated Balance, Net - Brought Forward, October 1               202,095          115,243          31,298           86                 6,530          147          355,399
    Obligations Incurred, Net                                                            2,411,332          370,887           7,524          -                 123,313          -          2,913,056
    Less Gross Outlays                                                                   2,279,490          347,454          10,719           31               126,170          147        2,764,011
    Less Recoveries of Prior Year Unpaid Obligations, Actual                                43,059           13,044           2,183           55                 2,978          -             61,319
    Change in Uncollected Customer Payments from Federal Sources                           (37,850)             -               -            -                   5,847          -            (32,003)

    Obligated Balance, Net - End of Period
        Unpaid Obligations                                                                466,546           125,632          25,920          -                  16,489          -           634,587
        Less Uncollected Customer Payments from Federal Sources                           213,518               -               -            -                   9,947          -           223,465
            Total Unpaid Obligated Balance, Net - End of Period                $          253,028     $     125,632    $     25,920   $      -        $          6,542    $     -     $     411,122

Net Outlays
    Gross Outlays                                                              $         2,279,490    $     347,454    $     10,719   $       31      $        126,170    $     147   $    2,764,011
    Less Offsetting Collections                                                          1,358,327              -               -            -                 125,132          -          1,483,459
    Less Distributed Offsetting Receipts                                                      (520)             -               -            -                     -            -               (520)

Total Net Outlays                                                              $          921,683     $     347,454    $     10,719   $          31   $          1,038    $     147   $    1,281,072




United States Marshals Service

                                                                                                 - 70 -
U.S. DEPARTMENT OF JUSTICE


UNITED STATES MARSHALS SERVICE



            APPENDIX




              - 71 -
This page left intentionally blank.
	




              - 72 -
                                                                  APPENDIX


              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The Office of the Inspector General (OIG) provided a draft of the
Independent Auditors’ Report on Internal Control over Financial Reporting to
the United States Marshals Service (USMS). The USMS’s response is
incorporated in the Independent Auditors’ Report on Internal Control over
Financial Reporting of this final report. The following provides the OIG
analysis of the response and summary of actions necessary to close the
report.

Recommendation Number:

1.	   Resolved. The USMS concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that the USMS has enhanced efforts to
      ensure that accruals for goods and services provided but not paid for
      are properly calculated, recorded timely, and adequately supported,
      and that undelivered orders are valid.

2.	   Resolved. The USMS concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that the USMS has enhanced
      supervisory review and approval controls, including review of source
      documentation, calculations, and posting logic for accounts payable,
      obligation, and deobligation transactions.

3.	   Resolved. The USMS concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that the USMS has enhanced
      procedures to ensure that obligations are recorded timely after the
      period of continuing resolution ends, and the USMS has developed
      procedures to ensure that appropriate “availability of funds” clauses
      are included in all agreements that are not fully obligated.

4.	   Resolved. The USMS concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that the USMS developed procedures
      to ensure that purchase card accruals are recorded for all goods and
      services received, regardless of whether the vendor has processed the
      payment for the goods or services.




                                    - 73 -
5.	   Resolved. The USMS concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that the USMS has reviewed financial
      management and accounting processes in place at district offices to
      identify process, knowledge, and training gaps affecting the execution
      of and adherence to the USMS directives and policies; implemented
      corrective action to address the identified gaps; and developed and
      implemented procedures for maintaining source documentation that
      can be easily retrieved for review and audit purposes.

6.	   Resolved. The USMS concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that the USMS has fully implemented
      procedures developed during fiscal year 2010 to ensure district office
      personnel utilize a consistent and reasonable methodology for
      recording prisoner medical obligations and accruals.

7.	   Closed. The status of corrective action related to this
      recommendation will be tracked through Recommendation No. 4 of the
      FY 2008 Annual Financial Statement Audit Report (OIG Report
      No. 09-13).




                                    - 74 -
